APPENDIX

1a

APPENDIX A

18-2380
United States v. Silver
UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT
______________
August Term 2018
(Argued: March 13, 2019 | Decided: January 21, 2020)
Docket No. 18-2380
UNITED STATES OF AMERICA,
Appellee,
THE NEW YORK TIMES COMPANY,
NBCUNIVERSAL MEDIA, LLC,
Intervenors,
v.
SHELDON SILVER,
Defendant-Appellant.
______________
Before:
WESLEY, LOHIER, and SULLIVAN, Circuit Judges.

2a
A jury convicted Defendant-Appellant Sheldon
Silver of two counts each of honest services mail fraud,
honest services wire fraud, and Hobbs Act extortion,
and one count of money laundering. Silver argues that
the United States District Court for the Southern
District of New York (Caproni, J.) erred in instructing
the jury on the elements of honest services fraud and
Hobbs Act extortion.
We agree. Although Silver is incorrect in asserting
that Hobbs Act extortion under color of right and
honest services fraud require evidence of a meeting-ofthe-minds “agreement,” he is correct that each offense
demands more than a nonspecific promise to
undertake official action on any future matter
beneficial to the payor. While this instructional error
was harmless with respect to three of Silver’s seven
counts of conviction, the evidence was insufficient to
sustain a guilty verdict against Silver on three other
counts.
We therefore REVERSE IN PART, VACATE IN
PART, AFFIRM IN PART, and REMAND for
further proceedings consistent with this opinion.
Judge Lohier concurs in a separate opinion.
______________
MEIR FEDER, (Samidh Guha, James Loonam,
Conor Reardon, on the brief), Jones Day, New
York, NY, for Defendant-Appellant.
DANIEL C. RICHENTHAL, Assistant United
States Attorney (Damian Williams, Thomas A.
McKay, Sarah K. Eddy, Assistant United
States Attorneys, on the brief), for Geoffrey S.

3a
Berman, United States Attorney for the
Southern District of New York, New York, NY.
______________
WESLEY, Circuit Judge:
This appeal marks the second time we have been
asked to review the conviction of Sheldon Silver,
former Speaker of the New York State Assembly. In
2016, Silver was convicted of accepting illegal bribes,
in violation of the mail and wire fraud statutes,
18 U.S.C. §§ 1341, 1343, and the Hobbs Act, 18 U.S.C.
§ 1951. He was also convicted of laundering the
proceeds of those offenses, in violation of 18 U.S.C.
§ 1957. One year later, we found that the United
States District Court for the Southern District of New
York (Caproni, J.) gave a jury instruction that failed
to meet the narrowed definition of “official act” set
forth in an intervening Supreme Court decision,
McDonnell v. United States, 136 S. Ct. 2355, 2371–72
(2016). United States v. Silver (Silver I), 864 F.3d 102,
119 (2d Cir. 2017), cert. denied, 138 S. Ct. 738 (2018).
The Government tried Silver a second time, and the
jury again convicted him on all seven counts.
Silver raises two principal challenges on appeal,
both concerning the district court’s jury instructions.
First, he argues that Hobbs Act extortion under color
of official right and honest services fraud require
evidence of an “agreement,” i.e., a meeting of the
minds, between the alleged bribe payor and receiver.
Second, he argues that the “as the opportunities arise”
theory of bribery we recognized in United States v.
Ganim, 510 F.3d 134, 142 (2d Cir. 2007) does not
survive McDonnell, which, he claims, requires
identification of the particular act to be performed at

4a
the time the official accepts a payment or makes a
promise.
We disagree with Silver’s first theory. Extortion
under color of right and honest services fraud require
that the official reasonably believe, at the time the
promise is made, that the payment is made in return
for a commitment to perform some official action.
Neither crime requires that the official and payor
share a common criminal intent or purpose. We do,
however, find limited merit in Silver’s second
challenge. Although neither offense requires, as he
argues, advance identification of the particular act to
be undertaken, they do require that the official
understand—at the time he accepted the payment—
the particular question or matter to be influenced.
Because the district court’s instructions failed to
convey this limitation on the “as the opportunities
arise” theory, and because this error was not harmless
with respect to his conviction under three counts, we
vacate Silver’s convictions on Counts 1s, 2s, and 5s. In
addition, because we conclude that the evidence as to
the same three counts was insufficient as a matter of
law to sustain a guilty verdict, we remand with
directions for the district court to dismiss the
indictment with prejudice as to them. However,
because we find this error was harmless with respect
to Silver’s conviction on Counts 3s, 4s, and 6s, we
affirm his conviction on those counts.
Finally, we affirm Silver’s conviction under
Count 7s for money laundering because that crime
does not require the defendant to be convicted of the
underlying criminal offenses, nor does it require the

5a
underlying offense to take place within the limitations
period.
BACKGROUND
A. Offense Conduct1
Silver was first elected to the New York State
Assembly in 1976. In 1994, he was elected Speaker of
the Assembly—a position he held until his resignation
in 2015.
During his tenure as Speaker, Silver worked parttime as a practicing lawyer, as permitted by New York
law.
See N.Y. Pub. Off. Law § 74(3)(a).
The
Government alleged that Silver used his law firm work
as a vehicle to exploit his elected position for unlawful
personal gain. According to the Government, Silver
orchestrated two separate bribery schemes in which
he received referral fees from law firms in exchange
for taking official actions. In one scheme, Silver
performed official acts beneficial to a medical doctor
who referred mesothelioma patients to Silver’s law
firm (the “Mesothelioma Scheme”). In the other,
Silver performed official acts beneficial to two real
estate developers who had hired a different law firm
that paid referral fees to Silver (the “Real Estate
Scheme”).
Together, these two alleged schemes
generated more than $3.5 million in referral fees for
Silver. The Government also charged that Silver
engaged in money laundering by investing the
proceeds of the Mesothelioma and Real Estate
1

“Because this is an appeal from a judgment of conviction
entered after a jury trial, the . . . facts are drawn from the trial
evidence and described in the light most favorable to the
Government.” United States v. Litwok, 678 F.3d 208, 210–11 (2d
Cir. 2012).

6a
Schemes into various private investment vehicles (the
“Money Laundering Scheme”).
B. Procedural History
On February 19, 2015, the Government indicted
Silver on charges of honest services mail and wire
fraud, Hobbs Act extortion, and money laundering. It
later filed a superseding indictment charging Silver
with seven counts:


Honest Services Mail Fraud: Mesothelioma
Scheme, 18 U.S.C. §§ 1341, 1346 (Count 1s);2



Honest Services Wire Fraud: Mesothelioma
Scheme, id. §§ 1343, 1346 (Count 2s);



Honest Services Mail Fraud:
Real Estate
Scheme, id. §§ 1341, 1346 (Count 3s);



Honest Services Wire Fraud:
Real Estate
Scheme, id. §§ 1343, 1346 (Count 4s);



Hobbs Act Extortion: Mesothelioma Scheme, id.
§ 1951 (Count 5s);



Hobbs Act Extortion: Real Estate Scheme, id.
§ 1951 (Count 6s);



Monetary
Transactions
Involving
Proceeds, id. § 1957 (Count 7s).

Crime

After a month-long trial, a jury found Silver guilty on
all counts.
He was sentenced to twelve years’
imprisonment, to be followed by two years of
supervised release.

2

Section 1341 is the substantive mail fraud offense; § 1343 is
the substantive wire fraud offense. Section 1346 expands the
reach of both statutes to include a scheme or artifice to “deprive
another of the intangible right of honest services.”

7a
Seven weeks later, the Supreme Court decided
McDonnell, which clarified the definition of an “official
act” in honest services fraud and extortion under color
of right charges. 136 S. Ct. at 2371–72. Vacating the
conviction of former Virginia Governor Robert
McDonnell, the Court held that “an ‘official act’ is a
decision or action on a ‘question, matter, cause, suit,
proceeding or controversy’” that involves “a formal
exercise of governmental power,” is “specific and
focused,” and is either “pending” or “may by law be
brought” before a public official. Id.
Relying on McDonnell, Silver appealed his
conviction, arguing that the decision rendered
erroneous the district court’s jury instructions
defining an official act as “any action taken or to be
taken under color of official authority.” Silver I, 864
F.3d at 112 (emphasis and citation omitted). We
agreed and remanded for retrial because the error was
not harmless. Id. at 118, 124.
The Government retried Silver in April and May of
2018. The district court instructed the jury that both
honest services fraud and extortion under color of
right require that Silver “understood” that, in
exchange for the client referrals, he was expected to
“take official action” “for the benefit of” the payor “as
specific opportunities arose.” Special App. 30, 33. A
jury again convicted him on all seven counts. The
district court sentenced Silver to concurrent terms of
seven years of imprisonment and three years of
supervised release on each count. The court also
ordered Silver to pay a fine of $1,750,000 and to forfeit
$3,739,808.53. The district court entered a judgment
of conviction on July 30, 2018.

8a
This appeal followed.
DISCUSSION
Silver advances two principal arguments on appeal,
both challenging the district court’s jury instructions.
According to Silver, (1) the court erroneously omitted
from its instructions the required element of an
“agreement” between Silver and the alleged bribe
payors; and (2) the “as the opportunities arise” theory
of bribery is no longer valid in the wake of McDonnell,
which, Silver argues, requires identification of the
particular act to be performed at the time the official
accepts a payment or makes a promise.3 Silver also
argues that the evidence is insufficient to sustain his
conviction with respect to the bribery-based counts,
and, as a result, his conviction for money laundering
must also be vacated.
“[W]e review a district court’s jury charge de novo,
and will vacate a conviction for an erroneous charge
unless the error was harmless.” United States v.
Nouri, 711 F.3d 129, 138 (2d Cir. 2013). A jury charge
is erroneous if it “either fails to adequately inform the
jury of the law, or misleads the jury as to a correct
legal standard.” United States v. Quattrone, 441 F.3d
153, 177 (2d Cir. 2006) (quoting United States v. Doyle,
130 F.3d 523, 535 (2d Cir. 1997)). For erroneous
instructions to be harmless, it must be “clear beyond a
reasonable doubt that a rational jury would have
found the defendant guilty absent the error.” United

3

Our references to “bribery” are only intended to address
the bribery theories of honest services fraud and Hobbs Act
extortion that are the subject of the indictment in this case.

9a
States v. Bah, 574 F.3d 106, 114 (2d Cir. 2009) (quoting
Quattrone, 441 F.3d at 177).
I. Neither Hobbs Act Extortion Under Color
of Right nor Honest Services Fraud
Requires
a
Meeting-of-the-Minds
“Agreement.”
Silver first argues that the district court erred in
rejecting his request to instruct the jury that both
extortion under color of right and honest services
fraud require “a quid pro quo agreement between
Mr. Silver and the alleged bribe payors.” J.A. 291
(emphasis added). According to Silver, both offenses
require that the bribe payor and receiver share a
common corrupt intent—i.e., a “meeting of the minds”
as to the official acts to be procured by the payment.
We disagree.
A. Hobbs Act Extortion Under Color of
Right
The Hobbs Act makes it a crime to “obstruct[],
delay[], or affect[] commerce or the movement of any
article or commodity in commerce, by robbery or
extortion. . . .”
18 U.S.C. § 1951(a).
It defines
extortion as “the obtaining of property from another,
with his consent, induced by wrongful use of actual or
threatened force, violence, or fear, or under color of
official right.” Id. § 1951(b)(2).
The Supreme Court first articulated a quid quo pro
requirement for extortion under color of right in
McCormick v. United States, 500 U.S. 257 (1991). The
Court held that extortion may occur in the special
context of political contributions “only if the payments
are made in return for an explicit promise or
undertaking by the official to perform or not to

10a
perform an official act.” Id. at 273. The Court left open
the questions of whether the offense further requires
“a showing that the public official ‘induced’ the payor’s
consent by some affirmative act such as a demand or
solicitation,” id. at 266 n.5, and whether “a quid pro
quo requirement exists in other contexts, such as when
an elected official receives gifts, meals, travel
expenses, or other items of value,” id. at 274 n.10.
One year later, in Evans v. United States, the
Supreme Court addressed both questions, concluding
that extortion under color of right is the “rough
equivalent of . . . ‘taking a bribe.’” 504 U.S. 255, 260
(1992). First, the Court held that a public official need
not affirmatively induce a bribe to be convicted of
extortion. Id. at 267–68. Instead, extortion under
color of right requires only that which was required to
prove extortion at common law, namely “a public
official [taking] ‘by [color] of his office’ money that was
not due to him for the performance of his official
duties. A demand, or request, by the public official
was not an element of the offense.” Id. at 260
(footnotes omitted). Under this reading, “the coercive
element is provided by the public office itself,” such
“that the wrongful acceptance of a bribe establishes all
the inducement that the statute requires.” Id. at 266.
Second, the Court “modified [McCormick’s ‘explicit
promise’] standard in non-campaign contribution
cases. . . .” United States v. Garcia, 992 F.2d 409, 414
(2d Cir. 1993). Unlike in McCormick, the Evans
defendant-official had never expressly promised to
take official action. Evans, 504 U.S. at 257. But he
had, the Court concluded, “implicit[ly] promise[d]” to
do so when, after several meetings and phone calls, he
accepted $8,000 from an undercover FBI agent posing

11a
as a real estate developer interested in rezoning a
specific plot of land. Id. The Court treated this
“implicit promise” as sufficient to prove extortion,
holding that a charge that “allowed the jury to convict
[the defendant] on the basis of the ‘passive acceptance
of a contribution’” “satisfie[d] the quid pro quo
requirement of [McCormick], because the offense is
completed at the time when the public official receives
a payment in return for his agreement to perform
specific official acts.” Id. at 267–68 (citation omitted);
see also McDonnell, 136 S. Ct. at 2371 (“[T]he public
official [need not] in fact intend to perform the ‘official
act,’ so long as he agrees to do so.” (emphasis added)).
In sum, extortion under color of right requires
(i) inducement, namely that “a public official has
obtained a payment to which he was not entitled,”
Evans, 504 U.S. at 268; and (ii) a quid pro quo, namely
that the official “promise[d] . . . to perform or not to
perform an official act” in return for payment,
McCormick, 500 U.S. at 273, or accepted a payment
“knowing that the payment was made in return for
official acts,” Evans, 504 U.S. at 268.
Evans makes clear that the first element,
inducement, does not require a meeting of the minds.
Because “the [inducement] element is provided by the
public office itself,” id. at 266, it may be proven
through evidence that “the victims were motivated to
make payments as a result of the defendant’s control
or influence over public officials and that the
defendant was aware of this motivation,” United
States v. Middlemiss, 217 F.3d 112, 117 (2d Cir. 2000)
(quoting United States v. McDonough, 56 F.3d 381,
388 (2d Cir. 1995)). In other words, it requires proof
as to each party’s belief or understanding as to the

12a
purpose for which payment is made, but it does not
demand that the victim and defendant shared a
common criminal intent or purpose.
The second element, quid pro quo, similarly
requires only that the official “assert[] that his official
conduct will be controlled by the terms of the promise
or undertaking.” McCormick, 500 U.S. at 273. As
Evans illustrates, the official’s actual intent is of no
moment. What matters is the intent the official
conveys to the payor—i.e., that he will take or refrain
from taking certain official action in return for
payment. Significantly, there is no requirement that
the official actually intend to follow through on his
commitment.
What matters is that the official
manifested a willingness to take payment for official
action or inaction. And since the official need not
follow through or even intend to follow through on his
representations, it follows that there cannot logically
be a requirement that the official and payor share a
common purpose.
In arguing otherwise, Silver points to language in
Evans explaining that the quid pro quo requirement is
“satisfie[d]” where “[a] public official receives a
payment in return for his agreement to perform
specific official acts.”
Evans, 504 U.S. at 268
(emphasis added). In doing so, he fails to acknowledge
that the term “agreement” is used, in the very same
opinion, interchangeably with the term “promise.” See
id. at 257. Indeed, we have elsewhere done the same.
See, e.g., Ganim, 510 F.3d at 141 (explaining that
extortion under color of right “criminalizes . . . a quid
pro quo agreement—to wit, a government official’s
receipt of a benefit in exchange for an act he has
performed, or promised to perform, in the exercise of

13a
his official authority” (emphases added)). He also
ignores that the Evans Court explained the quid pro
quo element by reference to McCormick, which refers
only to a “promise” or “undertaking.” See McCormick,
500 U.S. at 266, 273.4 Nothing Silver points to
suggests that the payor and recipient must share a
common purpose.
To hold otherwise would be to eliminate the
distinction between extortion under color of right and
conspiracy to commit the same, as recently clarified by
the Supreme Court. In Ocasio v. United States, the
Court upheld a police officer’s conviction for conspiring
with the extorted party. 136 S. Ct. 1423, 1432 (2016).
The extortionate scheme involved the officer referring
motorists involved in automobile accidents to an
4

For the same reason, Silver’s reliance on the Supreme
Court’s use of the term “agreement” in McDonnell is
unpersuasive. There, the Court summarized the requirements of
Hobbs Act extortion as follows:
Under this Court’s precedents, a public official is not
required to actually make a decision or take an action on a
“question, matter, cause, suit, proceeding or controversy”;
it is enough that the official agree to do so. See Evans, 504
U.S. at 268. The agreement need not be explicit, and the
public official need not specify the means that he will use
to perform his end of the bargain. Nor must the public
official in fact intend to perform the “official act,” so long as
he agrees to do so. A jury could, for example, conclude that
an agreement was reached if the evidence shows that the
public official received a thing of value knowing that it was
given with the expectation that the official would perform
an “official act” in return.
136 S. Ct. at 2370–71 (emphases added). Because McDonnell’s
use of the term agreement is by reference to Evans, it is best
understood as requiring the same mens rea as Evans— i.e., a
knowing “promise.”

14a
autobody shop that had agreed to pay kickbacks for
each referral. The Court rejected the argument that a
public official cannot conspire with his victim,
explaining that the “consent” required for extortion
under color of right “simply signifies the taking of
property under circumstances falling short of robbery,
and such ‘consent’ is quite different from the mens rea
necessary for a conspiracy,” id. at 1435, namely an
“agree[ment]” between the members of the conspiracy
“that the underlying crime be committed,” id. at 1432
(first emphasis added); see also id. at 1436 (explaining
that if a restaurant owner “reluctantly pays [a] bribe
in order to keep [her] business open, the owner has
‘consented’ to [a public official’s] demand, but this
mere acquiescence in the demand does not form a
conspiracy.”). Because the officer “share[d] a common
purpose” with the autobody shop owners—a state of
mind above and beyond their mere “acquiescence”—he
had simultaneously extorted and conspired with them.
See id. at 1432. Silver’s argument that a quid pro quo
requires a meeting of the minds would directly
contradict this distinction drawn in Ocasio.5
Thus, extortion under color of right does not require
a meeting-of-the-minds agreement. We accordingly
find no error in the jury instructions at issue here.
They adequately explained that the Government was
5

See also United States v. Repak, 852 F.3d 230, 251 (3d Cir.
2017) (“[The defendant’s] contention that the Government failed
to demonstrate an ‘agreement’ is unpersuasive. . . . [T]he
Government need not show an agreement [to prove Hobbs Act
extortion under color of right], [though] it does need to
demonstrate [the defendant’s] acceptance of [payments] knowing
that they were given in exchange for his influencing the award of
[government] contracts.”).

15a
required to prove that “the extorted party was
motivated, at least in part, by the expectation that as
a result of the payment, Mr. Silver would exercise
official influence or decision-making for the benefit of
the extorted party,” that Silver was “aware of th[is]
motivation,” and that Silver “knowingly and
intentionally sought or received property . . . in
exchange for the promise or performance of official
action.” Special App. 32–33.
B. Honest Services Fraud
Silver makes the same “agreement” argument with
respect to the district court’s instructions on honest
services fraud. He further argues that this error was
compounded by an instruction that, unlike in extortion
under color of right, the payor’s intent is irrelevant to
proving honest services fraud. We again find no error
in the instructions in this regard.
The mail and wire fraud statutes criminalize use of
their respective communication channels for the
purpose of executing a “scheme or artifice to defraud.”
18 U.S.C. §§ 1341, 1343. Where, as here, the fraud is
prosecuted as a scheme or artifice “to deprive another
of the intangible right of honest services,” id. § 1346,
it is known as “honest services” fraud. See Ganim, 510
F.3d at 148. Public sector honest services fraud “is
premised upon an underlying theory that a public
official acts as trustee for the citizens and the State
and thus owes the normal fiduciary duties of a trustee,
e.g., honesty and loyalty to them.” United States v.
Silvano, 812 F.2d 754, 759 (1st Cir. 1987) (internal
quotation marks, citations, and alteration omitted).
Although once thought to cover a broad range of
corruption, honest services fraud now “criminalizes

16a
only . . . bribe[s] and[] kickback[s].” Skilling v. United
States, 561 U.S. 358, 409 (2010). This limitation was
deemed necessary to avoid the “due process concerns
underlying the vagueness doctrine,” id. at 408, that
might otherwise result from an open-ended
application of the term, see id. at 405.
It remains an open question whether vagueness
concerns further require that honest services fraud be
defined, in all cases, by reference to one of the various
federal bribery statutes. See Silver I, 864 F.3d at 116
n.67; cf. Skilling, 561 U.S. at 412 (explaining that
there is “no significant risk that the honest-services
statute . . . will be stretched out of shape” because it
“draws content . . . from federal statutes proscribing—
and defining—similar crimes” (citing 18 U.S.C.
§§ 201(b), 666(a)(2); 41 U.S.C. § 52(2))). However, the
parties here agreed to define bribery by reference to
18 U.S.C. § 201(b)(2)(A), and we follow their lead.
Section 201(b)(2)(A) makes it a crime for “a public
official . . . , directly or indirectly, [to] corruptly
demand[], seek[], receive[], accept[], or agree[] to
receive or accept anything of value . . . in return for . . .
being influenced in the performance of any official
act.”
In United States v. Rybicki, we held that the mens
rea required for honest services fraud is proof that the
defendant “inten[ded] to deprive another of the
intangible right of honest services.” 354 F.3d 124, 145
(2d Cir. 2003) (en banc) (citation omitted). Where, as
here, the prosecution relies on a bribery theory, the
Government must additionally prove a quid pro quo,
which we have variously defined as “knowledge” of the
payor’s expectations, Ganim, 510 F.3d at 149, an
“underst[anding] that the . . . payments were made in

17a
return for official action,” United States v. Bruno, 661
F.3d 733, 744 (2d Cir. 2011), or a “promise[] to
perform” an official act in exchange for payment, id. at
743. As with extortion under color of right, the quid
pro quo may be express or implied, and it is not
necessary that the public official in fact intend to
perform the contemplated “official act.” McDonnell,
136 S. Ct. at 2370–71 (citing Evans, 504 U.S. at 268).
Neither Rybicki’s specific intent element nor
Ganim’s quid pro quo element supports Silver’s
argument that there must be a meeting of the minds
between the payor and the official as to the corrupt
purpose of the payments. Rybicki is concerned only
with the defendant’s state of mind—whether she
purposefully sought to breach her duties of honesty
and loyalty. For the same reasons discussed in the
context of extortion, “knowledge” and “promise” imply
a unilateral awareness of, or commitment to do or not
do, something; neither demands a meeting of the
minds. Finally, although “understanding” could be
interpreted as requiring a collusive agreement, such a
reading is incompatible with the synonymous use of
“promise” in Ganim. See, e.g., Ganim, 510 F.3d at
144–45.
Any remaining doubt is dispelled by our
interpretation of § 201(b)(2)(A) in United States v.
Myers, where we rejected the defendant-official’s
theory that bribery requires proof of an intent to follow
through on a promised action. 692 F.2d 823, 841–42
(2d Cir. 1982). We clarified that the phrase “being
influenced,” as used in § 201(b)(2)(A), “does not
describe the [public official’s] true intent, it describes
the intention he conveys to the briber in exchange for

18a
the bribe.” Id. at 841 (emphasis added).6 Therefore,
even “[i]f [the defendant] was ‘playacting’ and giving
false promises of assistance to people he believed were
offering him money to influence his official actions, he
violated the bribery statute.” Id. at 842. In other
words, bribery criminalizes “corrupt promise[s]”—as
evidenced by the official’s state of mind—not collusive
agreements. See id. at 850.
Silver is therefore incorrect in arguing that honest
services fraud requires evidence of a meeting of the
minds. We accordingly find no error in the jury
instructions he challenges. They adequately conveyed
that,
because the intent of the party giving the thing of
value may be different from the intent of the
party receiving the thing of value[,] . . . the
government only has to prove that Mr. Silver—
not the bribe giver—understood that, as a result
of the bribe, he was expected to exercise official
influence or take official action for the benefit of
the payor and, at the time the bribe was accepted,
intended to do so.
Special App. 30 (emphasis added). If anything, the
district court raised the Government’s burden to
Silver’s benefit by requiring that Silver “inten[ded] to

6

See also United States v. Ford, 435 F.3d 204, 212, 213 & n.6
(2d Cir. 2006) (explaining that, whereas the federal funds bribery
statute, 18 U.S.C. § 666(a)(1)(B), requires proof that a defendant
“accepted [payment] ‘intending to be influenced’ in her official
duties,” section 201(b)(2) “[lacks] an ‘intent to be influenced’
element, requiring instead that the ‘overall act be committed
corruptly’” and thus requires only an “awareness” of the
payment’s purpose).

19a
be influenced.” Id. As both McDonnell and Myers
make clear, it is the official’s conveyed intent—not her
actual intent—that is determinative in an honest
services fraud conviction. To the extent Silver argues
that it was error to instruct that the payor’s intent is
irrelevant, he mistakenly attempts to import an
element of extortion into honest services fraud. It was
extortion’s unique inducement element—not its quid
pro quo element—that required evidence as to the
payor’s purpose. See Evans, 504 U.S. at 266. As Myers
makes clear, honest services fraud is concerned only
with the official’s subjective belief as to the payor’s
purpose.
II. The “As The Opportunities Arise” Theory
Remains Valid Post-McDonnell, but the
Instructions Erroneously Failed to Convey
Its Requirements.
Silver’s second challenge is to the district court’s
instruction that an official may be found guilty of
extortion under color of right and honest services
fraud so long as he promised “to take official action in
exchange for . . . payments as the opportunity arose.”
Special App. 33 (emphasis added). Silver argues that
McDonnell eliminated this so-called “as the
opportunities arise” theory of bribery, under which an
official need not have promised to perform any specific
official acts at the time of payment. Although we
disagree that McDonnell requires identification of a
particular act of influence, we do agree that it requires
identification of a particular question or matter to be
influenced. In other words, a public official must do
more than promise to take some or any official action
beneficial to the payor as the opportunity to do so
arises; she must promise to take official action on a

20a
particular question or matter as the opportunity to
influence that same question or matter arises. See
Ganim, 510 F.3d at 145.
A. Bribery Does Not Require Identification
of the Particular Act to Be Performed.
To begin, Silver is incorrect in asserting that bribery
requires a promise to perform a particular official act.
McDonnell explained that both extortion under color
of right and honest services fraud require that an
official promise to “make a decision or take an action
on a question, matter, cause, suit, proceeding or
controversy.” 136 S. Ct. at 2371 (internal quotation
marks omitted). Neither offense, however, requires
that the official “specify the means that he will use to
perform his end of the bargain.” Id. (emphasis added);
see also Ganim, 510 F.3d at 147 (“[S]o long as the jury
finds that an official accepted gifts in exchange for a
promise to perform official acts for the giver, it need
not find that the specific act to be performed was
identified at the time of the promise. . . .” (emphases
added)). There is no error in the portion of the district
court’s instructions explaining that “[t]he government
does not have to prove that there was an . . .
agreement . . . that any particular action would be
taken in exchange for the bribe.” Special App. 30.
B. McDonnell Requires that the Official
Understand the Particular Question or
Matter to Be Influenced at the Time of
the Promise.
Even though the particular act of influence need not
be identified at the time of the official’s promise, the
particular question or matter to be influenced must be.
The “as the opportunities arise” theory of bribery,

21a
which we approved in Ganim, requires a promise to
“exercise particular kinds of influence . . . as specific
opportunities ar[i]se.” 510 F.3d at 144 (emphasis
added) (citation omitted). Although Ganim rejected
the proposition “that a specific act [must] be identified
and directly linked to a benefit at the time the benefit
is received,” id. at 145, McDonnell clarifies that, to be
convicted of bribery under the “as the opportunities
arise” theory, the public official must, at minimum,
promise to influence a “focused and concrete”
“question or matter” that “involv[es] a formal exercise
of governmental power.” See McDonnell, 136 S. Ct. at
2369–70.7
1. The “As the Opportunities Arise”
Theory of Bribery
In Ganim we reviewed the extortion under color of
right and honest services fraud convictions of former
Bridgeport, Connecticut mayor Joseph Ganim.
Several companies and individuals had paid bribes to
Ganim’s aides in exchange for Ganim undertaking
official acts on pending issues. The aides then
7

The terms “as the opportunities arise,” “stream of benefits,”
and “retainer” have been used interchangeably by other courts.
See, e.g., United States v. Percoco, No. 16-CR-776 (VEC), 2019 WL
493962, at *6 (S.D.N.Y. Feb. 8, 2019); United States v. Mangano,
No. 16-CR- 540 (JMA), 2018 WL 851860, at *2 (E.D.N.Y. Feb. 9,
2018). Our holding is limited to the “as the opportunities arise”
theory as set forth in Ganim—i.e., a promise to “exercise
particular kinds of influence . . . as specific opportunities ar[i]se,”
510 F.3d at 144–45. We express no opinion and need not reach
the issue of whether the acceptance of a bribe with a promise to
perform an official act in the future upon designation of the
official act by the bribe payor at that later date (in essence a
retainer) would run afoul of the honest services fraud statutes or
the Hobbs Act. That case is simply not before us.

22a
provided Ganim with money and other benefits over a
period of four years. Because many of the bribery
schemes overlapped, and because Ganim received the
payments from his aides rather than directly from the
bribe payors, the individual benefits that Ganim
received were not always tied directly to a specific
official act. This lack of linkage, Ganim argued,
defeated the Government’s case.
We disagreed and instead endorsed jury
instructions requiring that Ganim accepted payments
knowing that they were “made in exchange for a
specific exercise of [his] official powers” and that “he
was expected as a result of the payment[s] to exercise
particular kinds of influence, that is, on behalf of the
payor, as specific opportunities arose.” Ganim, 510
F.3d at 144 (emphasis added). We explicitly rejected
Ganim’s argument that bribery prosecutions are
governed by the same “nexus” requirement set forth in
United States v. Sun-Diamond Growers of California,
in which the Supreme Court held that the illegalgratuities statute, 18 U.S.C. § 201(c)(1)(A), requires
proof of “a link between a thing of value conferred upon
a public official and a specific ‘official act’ for or
because of which it was given.” 526 U.S. 398, 414
(1999).
Such a link is “not needed in the extortion or bribery
contexts,” we explained, because “it is the requirement
of an intent to perform an act in exchange for a
benefit—i.e., the quid pro quo agreement [or
promise]—that distinguishes those crimes from both
legal and illegal gratuities.” Ganim, 510 F.3d at 146–
47. In other words, bribery’s quid pro quo requirement
serves the same function as does the nexus
requirement for illegal gratuities:
avoiding the

23a
“peculiar result[]” that, without requiring a quid pro
quo, federal law might unconstitutionally criminalize
“any effort to buy favor or generalized goodwill from
an official who either has been, is, or may at some
unknown, unspecified later time, be in a position to act
favorably to the giver’s interests.” Sun-Diamond, 526
U.S. at 405–06 (first emphasis added). The only
difference is that, whereas the § 201(c)(1)(A) nexus
requires “a link between a thing of value . . . and a
specific ‘official act,’” id. at 414—i.e., this for that—the
extortion and bribery quid pro quo does not require a
“link [between] each specific benefit [and] a single
official act,” Ganim, 510 F.3d at 147 (emphasis added).
It may, alternatively, be proven through evidence of “a
scheme involving payments at regular intervals in
exchange for specific official[] acts as the opportunities
to commit those acts arise”—i.e., “this for these or
these for these, not just this for that.” Id. at 147–48
(internal quotation marks omitted).8

8

See also United States v. Kemp, 500 F.3d 257, 267–70, 281
(3d Cir. 2007) (approving of charge in honest services fraud
prosecution explaining that, where multiple benefits are given by
a person to a public official, “it need not be shown that any specific
benefit was given in exchange for a specific official act,” so long
as payments were made “in implicit exchange for one or more
official acts” (emphasis added)); United States v. Jennings, 160
F.3d 1006, 1014 (4th Cir. 1998) (“Bribery requires the intent to
effect an exchange of money (or gifts) for specific official action
(or inaction), but each payment need not be correlated with a
specific official act. Rather, it is sufficient to show that the payor
intended for each payment to induce the official to adopt a specific
course of action. . . . Thus, all that must be shown is that
payments were made with the intent of securing a specific type of
official action or favor in return.” (emphases added and citation
omitted)).

24a
Ganim was thus concerned with whether bribery is
limited to one-for-one exchanges. Although we held
that it can also “be accomplished through an ongoing
course of conduct,” id. at 149, we were clear that in
such cases the public official must still understand the
exchange to be one of payment for “specific official[]
acts as the opportunities to commit those acts arise,”
id. at 147 (emphases added).
2. McDonnell v. United States
In McDonnell, the Supreme Court reviewed a
challenge to jury instructions on extortion under color
of right and honest services fraud. At issue was
“whether arranging a meeting, contacting another
official, or hosting an event—without more—can be
a[n official act].” 136 S. Ct. at 2368. Like the parties
here—but unlike in Ganim, 510 F.3d at 142 n.4—the
parties in McDonnell agreed to define “official act” by
reference to the federal bribery statute, 18 U.S.C
§ 201(a)(3) (“[T]he term ‘official act’ means any
decision or action on any question, matter, cause, suit,
proceeding or controversy, which may at any time be
pending, or which may by law be brought before any
public official, in such official’s official capacity, or in
such official’s place of trust or profit.”).
See
McDonnell, 136 S. Ct. at 2365. The district court
defined “official act” accordingly, but further
instructed the jury that official acts “encompassed acts
that a public official customarily performs, including
acts in furtherance of longer-term goals or in a series
of steps to exercise influence or achieve an end.” Id. at
2366 (internal quotation marks omitted).
The Supreme Court, citing concerns that the
“standardless sweep” of this definition could “subject

25a
[public officials] to prosecution, without fair notice, for
the most prosaic interactions,” found these
instructions to be inadequate. Id. at 2373 (citation
omitted). It explained that, in order to “avoid[] this
‘vagueness shoal,’” id. (quoting Skilling, 561 U.S. at
368), a narrower definition of “official act” was
necessary.
First, the Court observed that a “‘cause,’ ‘suit,’
‘proceeding,’ [or] ‘controversy’ . . . connote[s] a formal
exercise of governmental power, such as a lawsuit,
hearing, or administrative determination.” Id. at
2368, 2374 (quoting 18 U.S.C. § 201(a)(3)). Second,
because “a word is known by the company it keeps,”
id. (citation omitted), the Court held that a jury must
find that the “question” or “matter” before the official
was “something specific and focused that is ‘pending’
or ‘may by law be brought before [him],’” id. at 2374
(quoting 18 U.S.C. § 201(a)(3)). Third, the Court
interpreted the terms “‘[p]ending’ and ‘may by law be
brought’ [to] suggest something that is relatively
circumscribed—the kind of thing that can be put on an
agenda, tracked for progress, and then checked off as
complete.” Id. at 2369 (quoting 18 U.S.C. § 201(a)(3)).
Finally, the Court noted that a jury must find that the
official “made a decision or took an action—or agreed
do so—on the identified ‘question, matter, cause, suit,
proceeding or controversy.’” Id. at 2374.
Contrary to the Government’s assertions, the
Court’s vacatur of McDonnell’s conviction was not
limited to concerns that the jury may have believed a
meeting, on its own, qualifies as a “decision or action.”
Id. at 2375. The Court was also concerned that the
jury may have convicted the defendant “without
finding that he agreed [(or promised)] to make a

26a
decision or take an action on a properly defined
‘question, matter, cause, suit, proceeding or
controversy.’” Id. at 2375 (emphasis added). In fact,
the Court discussed specific examples of both
properly—and improperly—defined “focused and
concrete . . . formal exercise[s] of governmental
power.” Id. at 2370. The examples were limited to
“questions or matters” because, as here, there was no
allegation that McDonnell promised to influence a
“cause, suit, proceeding or controversy”—like “a
lawsuit, hearing, or administrative determination.”
See id. at 2368–70.
The Court agreed with the Fourth Circuit that the
following questions or matters were sufficiently
“focused and concrete”:
(1) whether researchers at any of Virginia’s state
universities would initiate a study of Anatabloc;
(2) whether
the
state-created
Tobacco
Indemnification and Community Revitalization
Commission would allocate grant money for the
study of anatabine; and (3) whether the health
insurance plan for state employees in Virginia
would include Anatabloc as a covered drug.
Id. at 2370 (internal quotation marks and citation
omitted).
In contrast, general concerns about
“‘Virginia business and economic development,’ or—as
it was often put to the jury—‘Bob’s for Jobs,’” fell below
that standard. Id. at 2369 (citation omitted)). Indeed,
the Court noted that “[a]t trial, several of Governor
McDonnell’s subordinates testified that he asked them
to attend a meeting, not that he expected them to do
anything other than that.” Id. at 2374. The Court
explained that “[i]f that testimony reflects what

27a
Governor McDonnell agreed [(or promised)] to do at
the time he accepted the loans and gifts,” then he did
not, as required, “agree [(or promise)] to make a
decision or take an action on any of the three questions
or matters described [above].” Id. (emphases added);
see also id. at 2374–75 (requiring that the jury find the
defendant “agreed [(promised)] to exert pressure . . . to
initiate the research studies or add Anatabloc to the
state health plan”).
3. McDonnell Reiterates that Bribery
Requires the Official to Promise to
Act on a Specific, Concrete, or
Focused Question, Matter, Cause,
Suit, Proceeding or Controversy.
Two observations drawn from McDonnell’s
language inform our analysis. First, McDonnell reemphasizes that the relevant point in time in a quid
pro quo bribery scheme is the moment at which the
public official accepts the payment. See id. at 2374; see
also Evans, 504 U.S. at 268 (“[T]he offense is
completed at the time when the public official receives
a payment in return for his agreement to perform
specific official acts. . . .”). The question that arises
here, however, is: what must the official promise at
the time the bribery offense is committed?
That leads to our second observation. McDonnell
suggests that, at the time the bribe is made, the
promised official act must relate to a “properly
defined” “question, matter, cause, suit, proceeding or
controversy.” See McDonnell, 136 S. Ct. at 2374. This
follows from the fact that there are two requirements
for an official act: “First, the Government must
identify a ‘question, matter, cause, suit, proceeding or

28a
controversy,’” and “[s]econd, the Government must
prove that the public official made a decision or took
an action ‘on’ that question, matter, cause, suit,
proceeding, or controversy, or agreed to do so.” Id. at
2368 (emphasis added). Thus, for an official to
promise to perform an official act—and thereby
engage in the prohibited quid pro quo—the official
must promise to act on an identified “question, matter,
cause, suit proceeding, or controversy” at the time of
the promise. See id.
This point is illustrated in the context of this case
by considering the following example: An official
accepts a bribe, stating to the payor that she will “take
official acts as the opportunities arise.” In other
words, the official has promised to take—as the
opportunities arise—“any decision or action on any
question, matter, cause, suit, proceeding or
controversy [that] may at any time be pending,”
18 U.S.C. § 201(a)(3) (emphasis added), a promise so
vague as to be meaningless. The official has not
agreed to take official action on a properly defined—
i.e., focused, concrete and specific—question or matter.
The official has failed to offer a quo. Absent any
additional specificity, criminal liability could attach to
any later action the official takes so long as the official
is exercising some ability granted to him or her by law,
regardless of the fact that the official essentially
promised nothing in return for the payment.
McDonnell thus stands for the proposition that
bribery requires that an official accept a payment,
knowing that he is expected to use his office to
influence a “focused,” “concrete,” and “specific”
question or matter that “may be understood to refer to
a formal exercise of governmental power.” Id. at 2369–

29a
70, 2372. The question or matter need only be
“focused,” “concrete,” or “specific” enough to satisfy the
quid pro quo requirement—the official need only
promise to do something about a question or matter
that “may be understood to refer to a formal exercise
of governmental power.” Id. at 2369. For example,
questions or matters such as whether state
universities will research a particular drug, or
whether the state will provide funding to research a
particular disease are sufficiently concrete and
focused to satisfy McDonnell. See id. at 2369–70.
Conversely, for example, a promise to perform some
act to create jobs or lower taxes, or to “benefit the
payor,” without more, cannot be understood to refer to
a “formal exercise of governmental power that is
similar in nature to a ‘cause, suit, proceeding or
controversy.’” Id. at 2369. More pointedly, such a
promise is so lacking in definition or specificity that it
amounts to no promise at all. And, absent a promise,
there is no quid pro quo.
This observation does not signal a change in the law.
Nor do we suspect it will affect the prosecution of
bribery in most cases because neither the facts of
McDonnell, nor the Court’s opinion, suggest that
either the payor or the official must precisely define
the relevant matter or question upon which the official
is expected to exercise his official power.9
9 For example, the Supreme Court identified three properly
focused and concrete questions or matters without any explicit
agreement between Virginia businessman Jonnie Williams, the
alleged bribe payor, and Governor McDonnell. See McDonnell,
136 S. Ct. at 2370; see, e.g., id. at 2362 (“Williams told Governor
McDonnell that he ‘needed his help’ moving forward on the
research studies at Virginia’s public universities. . . .”); see also,

30a
Circumstantial
evidence
demonstrating
an
understanding between the payor and the official will
often be sufficient for the Government to identify a
properly focused and concrete question or matter.10
The crux of our inquiry is whether the offered quo has
enough definition and focus to be properly understood
as promising, in return for some quid, the formal
exercise of governmental power.
Furthermore, McDonnell’s interpretation of the
“official act” requirement fits comfortably with—and
provides a narrowing gloss on—Ganim’s “as the

e.g., id. (noting that after Williams took Mrs. McDonnell on a
“shopping trip,” “[t]he McDonnells later had Williams over for
dinner at the Governor’s Mansion, where they discussed research
studies on Anatabloc”); id. at 2363 (“Three days after the meeting
between Williams and Mrs. McDonnell, Governor McDonnell
directed his assistant to forward the article on Star Scientific to
[Virginia’s Secretary of Health and Human Resources].”). It was
clear, based on a pattern of conversations and gift-giving that
Williams sought McDonnell’s influence on three distinct
questions that properly involved the formal exercise of
governmental power.
10

Indeed, bribery is rarely conducted in explicit terms;
instead, the language of bribery is one of implication and
innuendo. Past experience shows that the Government will be
able to introduce, in the appropriate circumstances,
circumstantial and other evidence that the payor and official
understood the quid pro quo to center on an exchange of a thing
of value for official acts related to some sufficiently defined and
concrete question or matter involving the formal exercise of
governmental power. For example, in some circumstances, a
wink and a nod, an exchange of monies, and a subsequent vote on
a bill likely will be sufficient. See, e.g., Bruno, 661 F.3d at 744
(“[A] jury can in such cases infer guilt from evidence of benefits
received and subsequent favorable treatment, as well as from
behavior indicating consciousness of guilt.”).

31a
opportunities arise” theory, which similarly requires
an anticipated exchange of payment for “particular
kinds of influence,” Ganim, 510 F.3d at 144 (emphasis
added) (citation omitted). We therefore disagree with
Silver that the “as the opportunities arise” theory of
bribery does not survive McDonnell. But we agree
that, if the district court’s jury instructions failed to
convey that, as relevant here, a particular question or
matter must be identified at the time the official
makes a promise or accepts a payment, they were in
error.
Otherwise, we risk “subject[ing] [public officials] to
prosecution, without fair notice, for the most prosaic
interactions.” McDonnell, 136 S. Ct. at 2373. Indeed,
without a requirement that an official must promise to
influence a particular question or matter, any official
who accepts a thing of value and then later acts to the
benefit of the donor, in any manner, could be
vulnerable to criminal prosecution. See Bruno, 661
F.3d at 744 (explaining that a jury may “infer guilt
from evidence of benefits received and subsequent
favorable treatment” (quoting United States v.
Friedman, 854 F.2d 535, 554 (2d Cir. 1988))); see also
McDonnell, 136 S. Ct. at 2372 (“Officials might wonder
whether they could respond to even the most
commonplace requests for assistance, and citizens
with legitimate concerns might shrink from
participating in democratic discourse.”).11 As the
11

Accord United States v. Kincaid-Chauncey, 556 F.3d 923,
942–43 (9th Cir. 2009) (“The political system functions because
lobbyists and others are able to persuade elected officials of the
wisdom or error of policy proposals. . . . [S]uch endeavors are
protected by the right to petition the Government for a redress of
grievances guaranteed by the First Amendment of the United

32a
Supreme Court has warned, “a statute in this field
that can linguistically be interpreted to be either a
meat axe or a scalpel should reasonably be taken to be
the latter.” Sun-Diamond, 526 U.S. at 412.
C. The Jury Instructions in Context
Having determined that the “as the opportunities
arise” theory of bribery survives McDonnell, but that
the quid pro quo requirement demands more than a
mere promise to perform some or any official action to
“benefit the payor,” we turn to the jury instructions
provided in this case.
The district court provided the following instruction
to the jury on honest services fraud:
The government must prove that a bribe was
sought or received by Mr. Silver, directly or
indirectly, in exchange for the promise or
performance of official action. The government
does not have to prove that there was an . . .
agreement . . . that any particular action would
be taken in exchange for the bribe. . . .
[It does have to] prove that Mr. Silver . . .
understood that, as a result of the bribe, he was
expected to exercise official influence or take
official action for the benefit of the payor and, at

States Constitution. Attempts to persuade or mere favoritism,
evidenced by a public official’s willingness to take a lobbyist’s
telephone call or give a lobbyist greater access to his appointment
schedule, are not sufficient to demonstrate either the lobbyist’s or
the public official’s intent to deprive the public of honest
services.” (original alterations, citation, and internal quotation
marks omitted) (quoting United States v. Sawyer, 85 F.3d 713,
731 n.15 (1st Cir. 1996))).

33a
the time the bribe was accepted, intended to do
so as specific opportunities arose. . . .
An “official act” or “official action” is a decision or
action on a specific matter that may be pending
or may by law be brought before a public
official. . . . The decision or action must be made
on a question or matter that involves a formal
exercise of governmental power. That means
that the question or matter must be specific,
focused, and concrete—for example, the kind of
thing that could be put on an agenda and then
checked off as complete. It must be something
that may by law be brought before a public
official, or may at some time be pending before a
public official.
Special App. 30–31 (emphases added). The court
instructed the jury on extortion under color of right as
follows:
To satisfy [the quid pro quo] element, the
government must prove . . . that Mr. Silver
obtained property to which he was not entitled by
his public office, knowing that it was given in
return for official acts as the opportunity
arose. . . . If you find that Mr. Silver understood
that the property at issue was given solely to
cultivate goodwill or to nurture a relationship
with the person or entity who gave the property
and not as an exchange for any official action,
then this element has not been proven. . . . On
the other hand, if you find that Mr. Silver
accepted the property intending, at least in part,
to take official action in exchange for those

34a
payments as the opportunity arose, then [the
quid quo pro] element has been satisfied.
Special App. 32–33 (emphases added).
The instructions required that, at the time Silver
entered into the quid pro quo, he believed that the
payor expected him to exchange payment for “official
action [to] the benefit of the payor . . . as specific
opportunities arose,” id. at 30, or “official acts as the
opportunity arose,” id. at 33. Although the district
court further instructed the jury that it must find that
Silver “made [a decision] on a question or matter
that . . . [was] specific, focused, and concrete,” id. at 31
(emphasis added), it did not require that the specific
matter—e.g., the receipt of grant funding
(Mesothelioma Scheme) or extending specific tax
programs (Real Estate Scheme)—be identified, or even
understood by Silver, at the time he accepted the
bribe.
Analyzing the district court’s instructions in the
context of the Real Estate and Mesothelioma Schemes
demonstrates both that Silver overreads McDonnell
and that the Government relies on an open-ended
interpretation of Ganim. In our view, the district
court’s instructions were erroneous.
They only
required the jury to find that Silver understood, at the
time that he accepted any quid, that he was expected
to exercise official influence or take official action for
the benefit of the payor. As we explain below, an illegal
quid pro quo under the “as the opportunities arise”
theory of bribery requires more than what the
Government presented in this case: an open-ended
promise to perform official actions “for the benefit of
the payor.”

35a
1. Mesothelioma Scheme (Counts 1s, 2s,
and 5s)
The Government argues that Silver took “at least
five official actions” in connection with the
Mesothelioma Scheme, which allegedly involved the
exchange of client referrals for acts benefitting a
Manhattan physician, Dr. Robert Taub.
Special
App. 44. The acts included securing two grants to fund
Taub’s research; directing funding to a nonprofit for
which Taub’s wife served as a board member; securing
an Assembly resolution honoring Taub; and offering to
secure permits needed for a charity race in Silver’s
Lower Manhattan Assembly district.12
a. Background
In the fall of 2002, while he was Speaker of the
Assembly, Silver became “of counsel” to the law firm
Weitz & Luxenberg (“W&L”), which maintained an
active personal injury practice.
Lawsuits for
mesothelioma, a rare form of cancer caused by
exposure to asbestos, were particularly lucrative for
W&L. Silver received referral fees—a set percentage
of the fees earned by W&L—for any case he brought
into the firm.
Taub, an acquaintance of Silver, worked as a
physician and researcher at Columbia-Presbyterian
Hospital where he specialized in mesothelioma. In the
fall of 2003, Taub met Silver at an event and
12

The Government also presented evidence that Silver helped
Taub’s children secure employment. However, the Government
did not argue that any of this assistance included official acts,
only that it provided evidence of “the corrupt relationship
between Sheldon Silver and Dr. Taub” and of Silver’s “corrupt
intent.” Special App. at 50.

36a
“specifically” asked him to encourage W&L to donate
money to mesothelioma research. J.A. 445. Silver
declined.
However, “[a] few days” later, a mutual friend—
Daniel Chill—relayed to Taub that “Shelly [Silver]
want[ed] cases.” Id. at 446. Taub then began referring
patients to Silver for legal representation. As Taub
put it, he understood that “if [he] referred patients to
[W&L] . . ., [Silver] would be incentivized to be an
advocate for mesothelioma research and to help
mesothelioma patients.” Id. at 489.
Within “seven or eight months” of when Taub began
sending referrals, Silver—again through Chill—
directed Taub to write Silver a letter seeking state
funding for his mesothelioma research. Id. at 447.
Chill assisted Taub in drafting the letter, which
requested $250,000. In March 2005, Silver received
from W&L his first check for fees from Taub’s
referrals, totaling more than $175,000.
In July 2005, Taub received a $250,000 grant from
the New York State Department of Health under the
2002 Health Care Reform Act (“HCRA”). The HCRA
Assembly Pool was a discretionary fund containing
millions of dollars in public money that Silver, as
Speaker, could designate to grants for health care
purposes. Silver “was the ultimate decision-maker”
regarding HCRA disbursements, which were not
subject to public disclosure from 2000 to 2006. Id. at
528.
Taub continued to refer patients to W&L after he
received the first grant. In October 2006, Taub sent
Silver a letter requesting a second $250,000 HCRA
grant. He received that funding in November 2006.

37a
In 2007, state law changed to require public
disclosure of future HCRA grants, as well as disclosure
to the State Attorney General of any potential conflicts
of interest between legislators and recipients of
legislative grants. That same year, Silver informed
Taub in person that he could not fund his third HCRA
grant request.
Taub nevertheless continued sending mesothelioma
client leads to W&L until 2010, at which time he began
sending fewer leads to W&L because he had started
sending leads to another law firm. In response, on
May 25, 2010, Silver visited Taub in person to
complain that he was receiving fewer referrals. Taub
subsequently renewed his practice of referring cases to
W&L.13 As he explained in a contemporaneous email,
“I will keep giving cases to Shelly because I may need
him in the future—he is the most powerful man in
New York State.” Id. at 1775.
Silver did, in fact, continue to help Taub in other
ways. First, in 2008 he directed a $25,000 state grant
to the Shalom Task Force, a domestic violence nonprofit for which Taub’s wife served as a board member.
Second, in May 2011, Silver sponsored an Assembly
resolution commending Taub. He presented the
resolution to Taub at a public event. And, third, in the
fall of 2011, Silver promised Taub that his office could
help “navigate” the process of securing permits needed
to organize a proposed “Miles for Meso” charity race in
Silver’s Assembly district. Id. at 1774. The promise
13

There is some ambiguity in the record as to whether, after
the 2010 conversation between Taub and Silver, Taub continued
to send Silver referrals at the same volume, or whether Taub
increased the volume of referrals to Silver.

38a
never came to fruition, as the event was abandoned
shortly thereafter.
Taub provided mesothelioma leads to W&L through
at least 2013. Over the course of ten years, Silver
received roughly $3 million in fees for cases that Taub
referred to W&L.
b. HCRA Grants
The HCRA grants are the most clearly-defined
aspect of the Mesothelioma Scheme. As detailed
above, the facts adduced at trial provide overwhelming
evidence that Silver knowingly accepted referrals in
exchange for action on a “focused and concrete”
question or matter: whether the Assembly would
allocate grant money to Taub for the study of
mesothelioma. From the moment Taub approached
Silver about research funding, Silver knew that he had
power over something of great value to Taub. He then
chose to abuse that power for personal gain. The
HCRA component of the Mesothelioma Scheme is thus
a quintessential example of a public official extorting
a constituent under color of right and committing
honest services fraud, and the district court’s charge
adequately informed the jury of this aspect of the
scheme. While not naming the specific matter in the
charge, there could be but one conclusion: that the
focus of the promise was on the particular subject
matter of state funding for mesothelioma research.
However, for the reasons discussed below in
Part IV.A, the HCRA grant scheme occurred outside of
the statute of limitations, so we must determine
whether the jury could have properly considered
evidence other than the HCRA grants.

39a
c. Non-Profit Funding, Charity Race
Permits,
and
the
Assembly
Resolution
The Government argues that, even without the
HCRA grants, it presented evidence beyond a
reasonable doubt that Silver knowingly exchanged
referrals for influence on a particular question or
matter. Silver’s corrupt promise, in the Government’s
view, is particularized by any official act that
benefitted Taub. The Government points to the
hodgepodge of other allegedly official acts Silver
undertook, including securing funding for Taub’s
wife’s charity, formally recognizing Taub in an
Assembly resolution, and offering to assist in securing
permits for Taub’s charity race. The district court’s
charge is in accord with that view. However, as we
explain below, like the HCRA grants, Silver’s securing
of funding for Taub’s wife’s charity is also outside of
the limitations period. Thus, Silver’s conviction rests
upon whether Ganim, as modified by McDonnell,
requires only that the official understood he was
expected to take official action “for the benefit of the
payor,” as the opportunities arose.
2. Real Estate Scheme (Counts 3s, 4s,
and 6s)
The Real Estate Scheme presents a significantly
different factual scenario that more closely resembles
classic bribery-based crimes. The Government argues
that Silver committed at least two official acts in
connection with the Real Estate Scheme, which
involved two major New York real estate developers:
Glenwood Management and the Witkoff Group
(collectively, the “Developers”). First, the Government

40a
argues that Silver helped pass legislation beneficial to
the Developers, specifically provisions of the Rent Act
of 2011 concerning certain tax abatement and rent
stabilization programs. Second, the Government
asserts that Silver helped Glenwood secure certain
tax-exempt financing from the Public Authority
Control Board (“PACB”), of which he was a voting
member.14
Similar to the Mesothelioma Scheme, the
Government again alleges that Silver enriched himself
through referral fees from a law firm. In the Real
Estate Scheme, however, the firm was Goldberg &
Iryami (“G&I”), headed by Jay Goldberg, a former
staffer and friend of Silver. Goldberg specialized in
tax certiorari work, which involves challenges to
property valuations used in tax assessments.
According to the Government, Silver accepted tax
certiorari referrals in exchange for influencing two
matters important to the Developers: (i) legislation
relating to certain tax abatement and rent
14

Silver’s argument that the PACB approvals were
“perfunctory” or “rubber-stamp[s]” and that his vote on the Rent
Act of 2011 was “inevitable” are unavailing. Appellant Br. 51–52.
It is no defense that an official would have taken certain actions
regardless of any alleged bribe. See, e.g., United States v. Rosen,
716 F.3d 691, 701–02 (2d Cir. 2013) (“Payments to State
legislators may constitute bribes even if the legislator’s resulting
actions are otherwise ‘routine’—such as voting in a certain
manner. . . . Moreover, the corrupt intent that is central to an
illegal quid pro quo exchange persists even though the State
legislator’s acts also benefit constituents other than the
defendant.”); see also United States v. Alfisi, 308 F.3d 144, 151
(2d Cir. 2002) (“[T]here is no lack of sound legislative purpose in
defining bribery to include payments in exchange for an act to
which the payor is legally entitled.”).

41a
stabilization programs, and (ii) PACB financing
approvals.
The Glenwood referrals began in 2002, when
Goldberg asked a Glenwood lobbyist to send him some
of Glenwood’s tax certiorari work. Although the
lobbyist testified that both he and the leadership of
Glenwood were unaware until December 2011 that
Silver received referral fees from G&I, he also testified
that he “thought [the fact that Silver and Goldberg
were friends] would be important to [Glenwood] to
know” when considering whether to retain G&I. J.A.
728.
The Witkoff referrals began in 2004 when Silver
“told [Witkoff] that he had a friend whose name was
Jay Goldberg who was in the tax certiorari legal
business. He was struggling and was wondering if
[Witkoff] might consider giving some of [his] tax
certiorari legal work to Mr. Goldberg’s law firm.” Id.
at 798. Although Silver did not mention that he
received referral fees from G&I, Witkoff testified that
he subsequently sent work to G&I because he “didn’t
want to do anything that could possibly alienate
Mr. Silver. . . . [Silver] was a powerful man . . . with
regard to [Witkoff’s] industry, [his] business and how
[he] exist[s] in [his] business in the city.” Id. As
Witkoff explained, he “might have occasion to” discuss
matters with Silver in the future, though he “didn’t
have [occasion to do so] at that moment.” Id.
Silver’s first alleged quid pro quo with the
Developers involved an exchange of referrals from
Glenwood for influence on provisions of the Rent Act
of 2011. As Speaker, Silver had substantial control
over which legislation went to the Assembly floor for a

42a
vote. Glenwood’s lobbyist testified that provisions of
the Rent Act of 2011 related to tax abatement and rent
stabilization were “[v]ery” important to Glenwood, and
that “without continuation of [the tax abatement
program, Glenwood] couldn’t build any more
buildings.” Id. at 725; see also id. at 796 (Witkoff
testifying that “[i]f [Witkoff] didn’t have [the tax
abatement], it would have been a tougher exercise to
finance [certain prior] project[s]”).
Glenwood’s
lobbyist also testified that passage of both provisions
was “[e]xtremely” controversial, id. at 725, though a
third-party lobbyist testified that there was “[n]ot
much” controversy as to “the continuation of [the
programs],” id. at 764.
In June 2011, Silver met with Glenwood’s lobbyists
in his Assembly office. The lobbyists proposed that
certain rent stabilization provisions in the Rent Act of
2011 be made more tenant-friendly to ensure passage
of the larger “full bill” that included renewal of the
specific tax abatement program important to
Glenwood. See id. at 726–27. Several weeks later, the
bill passed to the [“satisfaction]” of Glenwood. Id. at
727.
The second alleged quid pro quo involved an
exchange of referrals from Glenwood for Silver’s
influence as a voting member of the PACB. Because
PACB financing applications require unanimous
approval, Silver had the power to unilaterally deny
them. Silver voted in favor of all eight of the Glenwood
PACB requests received between 2000 and 2012. Four
of these approvals—November 2010, October 2011,
October 2012, and August 2014—occurred within the
limitations period.

43a
In proving the Real Estate Scheme, the Government
highlighted a “side letter” retainer agreement signed
by Goldberg, Glenwood, and Silver in December 2011.
See id. at 898. In late 2011, G&I prepared new
retainer agreements “notifying [Glenwood] formally
that Mr. Silver was participating,” i.e., receiving
referral fees. Id. at 897. Although Glenwood was
unhappy that Silver received referral fees, it was also
concerned about how Silver would “[r]eact towards
Glenwood” if the fees stopped because Silver was
“extremely influential and powerful, not somebody you
would want to make not like you.” Id. at 823.
Subsequently, a Glenwood executive called G&I’s
office and “said they decided that they would rather
have a standard retainer without the mention of
Mr. Silver’s name and that there would be a side
agreement wherein Mr. Silver, Mr. Goldberg, [and the
Glenwood
executive]
would
sign,
everyone
acknowledging that Mr. Silver was getting a portion of
the fee.” Id. at 897. In January 2012, Silver signed
this “side letter.”
Days after Silver and Glenwood inked the side
letter, Glenwood sent six new buildings to Goldberg for
tax certiorari representation—benefitting Silver.
Silver also voted to approve hundreds of millions of
dollars in PACB financing benefitting Glenwood two
months before and ten months after signing the letter.
Additionally, had Silver still been in the Assembly in
2015, he would have again had the opportunity to vote
on the same valuable tax abatement and rent
stabilization programs, which must be renewed every
four years.
Although Silver resigned from the
Assembly following his indictment in February 2015,
Glenwood testified that, had Silver still been Speaker,

44a
it would have lobbied him on those programs. Witkoff
did not learn that Silver received referral fees until
June 2014.
Despite misgivings about Silver’s
involvement, Witkoff continued using G&I.
In total, over a period of about 18 years, Silver
received approximately $835,000 in fees from G&I for
referring the Developers’ tax certiorari work to the
firm.
3. Silver’s Conviction Depends on the
Proper Understanding of Ganim’s
Requirement that the Official Agree
to Exercise “Particular Kinds of
Influence.”
As discussed, the Mesothelioma Scheme changed
after 2007. After Taub stopped directing referrals to
W&L through Silver, and after Silver visited Taub’s
office seeking additional referrals, the Government
argued that the character of the quid pro quo changed.
The jury instructions as written encompass what the
Government believed the character of the quid pro quo
had become—that after Silver sought additional
referrals, he promised to, or understood that he was
expected to, perform official acts, for Taub’s benefit, as
the opportunities to do so arose.
At trial, and before this Court, the Government
argued that Silver sought “other ways to keep
Dr. Taub happy”—such as navigating the race
permitting process or passing the Assembly
resolution—to continue receiving referrals.
See
Special App. 41.
However, after McDonnell,
navigating a permitting process is not an official act,
see McDonnell, 136 S. Ct. at 2370, and Silver’s
provision of funding to Taub’s wife’s charity took place

45a
outside of the limitations period. Thus, because the
HCRA grants are time-barred, the only official action
within the limitations period is the Assembly
resolution honoring Taub.
In contrast, the quid pro quo that allegedly forms
the basis of the Real Estate Scheme is more focused.
The Government presented evidence tracking Silver’s
signing of the “side letter” retainer agreement with
PACB approvals, and Glenwood and Witkoff’s
retention of G&I with Silver’s actions related to the
Rent Act of 2011. The Government also presented
evidence suggesting the relationship between Silver
and the Developers continued due to the Developers’
fear that Silver would act adversely to their interests.
Furthermore, there is evidence suggesting that
Silver’s relationship with Glenwood and its lobbyists
centered around Silver’s approval of specific favorable
provisions contained in real estate legislation. And
circumstantial evidence of the timing of (in particular)
Glenwood’s retention of, and provision of business to,
G&I tracks neatly with Silver’s approval of real estate
legislation.
While the Government presented no evidence that
Taub sought, or Silver promised to provide, the
Assembly resolution as part of the Mesothelioma
Scheme, with respect to the Real Estate Scheme, the
Government presented evidence that links Silver’s
official actions with business provided by the
Developers to G&I. The Government’s “for the benefit
of” theory occasioned by the factual differences in the
two schemes compels us to confront what is required
under Ganim, in light of McDonnell, when an official
promises to exercise “particular kinds of influence” “as
the opportunities arise.” See Ganim, 510 F.3d at 145.

46a
D. The “As the Opportunities Arise” Theory
of Bribery Requires More Than a
Promise to Perform Any Official Act for
the Benefit of the Payor.
As discussed above, the jury instructions only
required the jury to determine whether Mr. Silver
promised to, or understood that he was expected to,
perform official acts “for the benefit of the payor” as
the opportunities to do so arose. Special App. 30–31.
The instruction on extortion under color of right was
even less definite, asking the jury to determine only
whether Silver “accepted the property intending, at
least in part, to take official action in exchange for
those payments as the opportunity arose.” Special
App. 33. Having contrasted the two schemes, we think
it evident that Silver’s conviction under Counts 1s, 2s,
and 5s depends on what precisely is required to
demonstrate a promise to exercise “particular kinds of
influence” after McDonnell. See Ganim, 510 F.3d at
144.
Under the instructions provided by the district
court, and according to the Government’s argument, it
is enough that the official promised to perform some or
any official acts, for the benefit of the payor, as the
opportunities arose. See, e.g., Appellee Br. at 39, 41–
42. However, the facts of Ganim demonstrate that the
“as the opportunities arise” theory has always
required more than a mere promise to perform official
acts “for the benefit of the payor.”
Specifically, Ganim used two aides, both of whom
held side jobs as consultants, to facilitate various
bribery schemes. In each instance, Ganim knew that
the bribe payor sought to influence an identified issue

47a
pending
before
the
City—including
specific
wastewater treatment contracts, an open municipal
pension brokerage position, condemnation of a specific
property, and two identified property development
contracts—by paying consulting fees to the aides.
Ganim, 510 F.3d at 137–40. The aides kept Ganim’s
fee shares “to avoid detection” but provided him with
money and other benefits “upon his request.” Id. at
139.
Thus, it was clear from the beginning what
“particular kinds of influence” Ganim was expected to
exercise, namely official action affecting each of these
identified areas.15 Id. at 149. This exchange of
15

In United States v. Coyne, the primary Second Circuit case
on which Ganim relies to support the “as the opportunities arise”
theory, we approved of an instruction requiring that the
defendant “know the payment is offered in exchange for a specific
requested exercise of his official power . . . 4 F.3d 100, 113–14 (2d
Cir. 1993) (emphasis added). In doing so, we rejected the
defendant’s argument that the quid pro quo requirement
demands an “explicit promise,” explaining that it is instead
“sufficient if the public official understands that he or she is
expected as a result of the payment to exercise particular kinds
of influence—i.e., on behalf of the payor—as specific
opportunities arise.” Id. at 114. To the extent that “particular
kinds of influence—i.e., on behalf of the payor” might, in isolation,
be read to require only that the official promise to take some
action beneficial to the payor, the precise instructions in Coyne
make clear that such a reading is too broad. Rather, the promise
must concern a “specific requested exercise of . . . official power”—
in Coyne, a specific municipal contract. Id. at 113–14. Ganim
does not loosen this requirement in demanding a “specific
exercise of the defendant’s official powers.” 510 F.3d at 144.
Indeed, Ganim says as much. See id. at 145 (“To the extent
Ganim objects to the ‘particular kinds of influence’ phraseology
in . . . the jury charge, we find no error. Because the preceding
paragraph in the charge clearly articulated the ‘payment . . . in

48a
payments “for a specific exercise of [Ganim’s] official
powers” was enough to sustain Ganim’s conviction,
even though the separate questions of how Ganim
would influence those issues (which specific actions he
would take), as well as the form the kickbacks would
ultimately take (cash, meals, etc.), remained
unspecified.16 See id. at 144 (emphasis added). In
Ganim, the fact that a specific official act did not need
to be linked to a gratuity (this for that) did not
eliminate the necessity of some degree of specificity to
the public official’s promise. The “opportunities” had
definition—they were not open-ended and subject to
whatever the public official thought might please (or
benefit) the bribe payor.
To the extent our sister circuits have used language
suggesting the open-ended liability advanced by the
Government, a close review of the facts in each case
makes clear that they, like Ganim, do not support such
a sweeping view of bribery. For example, in United
States v. Kincaid-Chauncey, the Ninth Circuit upheld
instructions regarding extortion and honest services
fraud similar to those in Ganim—that the public
official must have “underst[ood] that he or she [was]
expected as a result of the payment to exercise
particular kinds of influence as specific opportunities
return for official acts’ quid pro quo, the phrase ‘kinds of
influence,’ which might otherwise be ambiguous, would only be
understood to refer to undertaking the official acts that made up
Ganim’s part of the bargain.” (second alteration in original)).
16

See also United States v. Whitfield, 590 F.3d 325, 350 (5th
Cir. 2009) (“[A] particular, specified act need not be identified at
the time of payment to satisfy the quid pro quo requirement, so
long as the payor and payee agreed upon a specific type of action
to be taken in the future.”).

49a
ar[o]se.” 556 F.3d at 945. There, the Government’s
evidence showed that a county commissioner had
accepted four separate payments from a strip club
owner who needed certain ordinances, permits, and
licenses to operate two new establishments. On one
occasion, the commissioner had lunch with the owner,
received a cash payment later that same day, and a
month later voted in the owner’s business interests.
Id. at 928. On another occasion, the commissioner
contacted the owner to request a sum of cash, which
she later received along with subsequent instructions
regarding how to vote on a specific piece of legislation.
Id. at 928.
The Ninth Circuit’s observation that “[i]t is
sufficient . . . if the evidence establishes that the
government official . . . has received payments or other
items of value with the understanding that when the
payor comes calling, the government official will do
whatever is asked” was set in the context of identified
concerns followed by official acts. Id. at 927–28, 943
n.15. As in Ganim, the commissioner knew she was
expected to assist in securing various government
approvals for the owner’s business in exchange for the
payments. What she, like Ganim, did not know was
what form that assistance would ultimately take. The
phrase “when the payor comes calling” was thus
another way of conveying that the specific act need not
be identified at the time of payment, but may instead
be later identified, by the payor, when a specific
opportunity arises. The phrase does not, in light of its
factual context, suggest that an official may be held
criminally liable for accepting a payment with the
understanding that she will take some action on any

50a
conceivable topic.17 Indeed, such a reading would
effectively eliminate the distinction between lobbying
(lawful attempts to “buy favor,” see Sun-Diamond,
526 U.S. at 405–406) and bribery (unlawful attempts
to buy particular kinds of influence).
But contrary to the Government’s assertions,
Ganim neither held, nor do its facts suggest, that a
bribery scheme involving payments made in return for
a promise to “take [some or any] official action”
beneficial in any way to the payor satisfies either
offense’s quid pro quo requirement. Nor have we
articulated this view elsewhere.18 At most, Ganim left
17

See also Kemp, 500 F.3d at 267–70 (affirming honest
services fraud convictions where defendants made multiple
payments to a former Philadelphia treasurer in return for official
assistance in securing and/or renewing certain municipal
contracts); Jennings, 160 F.3d at 1010–12 (affirming bribery
conviction where defendant met with the administrator of a
federal agency to discuss two specific housing rehabilitation
programs that did not require competitive bidding, made ongoing
multiple payments to the administrator, and simultaneously
submitted a series of successful requests for contracts under
those same two programs); cf. Sawyer, 85 F.3d at 730 (explaining
that “a person with continuing and long-term interests before an
official . . . engag[ing] in a pattern of repeated, intentional
gratuity offenses in order to coax ongoing favorable official action
in derogation of the public’s right to impartial official services”
would be “akin to” two honest services fraud cases involving
undisclosed self-dealing—a theory that is distinct from the
bribery theory at issue here and that was subsequently deemed
unconstitutional in Skilling, 561 U.S. at 409).
18

See Rosen, 716 F.3d at 700 (“[T]he federal bribery and
honest services fraud statutes . . . criminalize schemes involving
payments at regular intervals in exchange for specific official acts
as the opportunities to commit those acts arise, even if the
opportunity to undertake the requested act has not arisen, and
even if the payment is not exchanged for a particular act but

51a
open the narrow question of what qualifies as
“particular kinds of influence.” But Ganim made clear
that the promised influence, at a minimum, must be of
a “particular kind[].” The jury instructions here,
however, required only that Silver promise “to take
[some or any] official action” “for the benefit of the
payor.” In light of Ganim and our other precedents,
and especially after McDonnell’s narrowing of the
definition of official acts, such an instruction is
insufficient to accurately inform the jury of what is
required to find a quid pro quo.
Moreover, failure to define the conduct prohibited
by extortion under color of right and honest services
fraud would “raise[] significant federalism concerns”
akin to those identified in McDonnell. Id. at 2373. “A
State defines itself as a sovereign through ‘the
structure of its government[] and the character of
those who exercise government authority.’ That
includes the prerogative to regulate the permissible
given with the expectation that the official will exercise
particular kinds of influence.” (emphases added) (original
alterations, internal quotation marks, and citations omitted));
Bruno, 661 F.3d at 744 (“The government’s evidence of the timing
of the payments in relation to the actions taken by [the former
New York State Senate Majority Leader] could also be accepted
by a rational jury in support of the conclusion that [the
defendant] understood that the consulting payments were made
in return for official action [on a specific and pending government
grant].”); United States v. Bahel, 662 F.3d 610, 634 (2d Cir. 2011)
(approving of jury instruction requiring that the defendantofficial have “accepted financial benefits . . . in return for [three
enumerated] forms of assistance” (emphasis omitted)); Coyne, 4
F.3d at 113–14 (approving of jury instruction requiring that
defendant-official have known the payment was made “in return
for official acts,” i.e., “in exchange for a specific requested exercise
of his official power” (emphasis added)).

52a
scope of interactions between state officials and their
constituents.” Id. (citation omitted) (quoting Gregory
v. Ashcroft, 501 U.S. 452, 460 (1991)). New York State
allows elected officials to maintain part-time
employment, including practicing law. N.Y. Pub. Off.
Law § 74(3)(a).
Without the particularity
requirement, federal corruption statutes could reach a
wide range of activity not prohibited by New York law.
In short, “[s]erving constituents and supporting
legislation that will benefit the district and
individuals and groups therein is the everyday
business of a legislator.” McCormick, 500 U.S. at 272.
The federal criminal statutes cannot be read in a
manner that “reaches any effort to buy favor or
generalized goodwill from an official who either has
been, is, or may at some unknown, unspecified later
time, be in a position to act favorably to the giver’s
interests,” Sun-Diamond, 526 U.S. at 405, or that
“‘involves the Federal Government in setting
standards’ of ‘good government for local and state
officials,’” McDonnell, 136 S. Ct. at 2373 (quoting
McNally v. United States, 483 U.S. 350, 360 (1987)).
For the foregoing reasons, Ganim’s rule that the
jury “need not find that the specific act to be performed
was identified at the time of the promise, nor need it
link each specific benefit to a single official act,” 510
F.3d at 147, remains good law.
Furthermore,
McDonnell makes clear that the official need not
communicate that he will, or otherwise believe that he
is expected to, affect the relevant “question, matter,
cause, suit, proceeding or controversy” by any
particular “means.” McDonnell, 136 S. Ct. at 2371
(emphasis added). That is, the official need not
promise to perform any precise act upon the relevant

53a
question or matter. But to the extent that the
Government reads McDonnell to allow an open-ended
promise limited only by those acts that benefit the
payor and not to require that a particular question or
matter be identified at the time the official enters into
a quid pro quo arrangement, we disagree.
With respect to honest services fraud, the jury was
instructed that it needed only to find that Silver was
“expected to exercise official influence or take official
action for the benefit of the payor.” Special App. 30–31
(emphasis added). Instead, the jury should have been
instructed that, to convict on honest services fraud,
the Government must prove that, at the time the bribe
was accepted, Silver promised to take official action on
a specific and focused question or matter as the
opportunities to take such action arose.
As to Hobbs Act extortion, the jury was instructed
that they could find Silver guilty if they found that he
“obtained property to which he was not entitled by his
public office, knowing that it was given in return for
official acts as the opportunity arose,” “that the
extorted party was motivated, at least in part, by the
expectation that as a result of the payment, Mr. Silver
would exercise official influence or decision-making for
the benefit of the extorted party,. . . that Mr. Silver was
aware of that motivation,” and that the property was
given “as an exchange for any official action.” Id. at
32–33 (emphases added). Instead, the jury should
have been told that the quid pro quo element was
satisfied if, at the time Silver accepted the extorted
property, he understood that he was expected, in
exchange for those payments, to take official action on
a specific and focused question or matter as the

54a
opportunity to do so arose.19 See, e.g., Ganim, 510 F.3d
at 144–45 (finding no error in instruction that the jury
must find the official understood he was “expected as
a result of the payment to exercise particular kinds of
influence . . . on behalf of the payor, as specific
opportunities arose” (emphasis added)).
Instructing a jury that an official need only
understand her official action to benefit the payor
creates a situation where an official could accept a
payment—lawful or otherwise—and later incur
criminal liability by voting on any legislation or
performing any official act on any topic that benefits
the payor. While some may find political contributions
a corrupting influence in American politics, those
moral judgments do not define criminal liability.
In summary, the jury instructions were erroneous
because the required quid pro quo contained therein
was too open-ended. The instructions failed to convey
that Silver could not be convicted of honest services
fraud unless the Government proved that, at the time
the bribe was accepted, Silver promised to take official
action on a specific and focused question or matter as
the opportunities to take such action arose. And, with
respect to Hobbs Act Extortion, the instructions
erroneously failed to convey that the Government was
19

We note too that prior instructions requiring the jury to find
that the official understood that he or she was expected to
exercise particular kinds of influence would not be in error after
McDonnell. See, e.g., Ganim, 510 F.3d at 144–45. The phrase
“particular kinds of influence” connotes that the official action
must relate to a sufficiently particular, focused, or concrete
question or matter. Furthermore, an exchange for a particular
kind of influence is sufficiently definite to satisfy the quid pro quo
requirement.

55a
required to prove that, at the time Silver accepted the
extorted property, he understood that he was
expected, in exchange for those payments, to take
official action on a specific and focused question or
matter as the opportunity to do so arose.
III. Harmlessness
Because the instructions are burdened with this
error, we must determine whether the error was
harmless as to Silver’s convictions. For the erroneous
instructions to have been harmless, it must be “clear
beyond a reasonable doubt that a rational jury would
have found [Silver] guilty absent the error.” Bah, 574
F.3d at 114 (quoting Quattrone, 441 F.3d at 177). That
is to say, we must be convinced that a rational jury
would have found that Silver entered into the alleged
quid pro quos understanding that he was expected to
influence “specific,” “focused, and concrete” questions
or matters.20 The Government bears the burden of
establishing that any error is harmless.
See
Quattrone, 441 F.3d at 181.
A. The Instructions Could Have Misled the
Jury to Convict Silver Despite a Lack of
Any Quid Pro Quo Related to the
Mesothelioma Scheme After 2007.
As we noted in our earlier discussion, Silver’s
convictions under Counts 1s, 2s, and 5s are dependent
upon whether liability could attach to a promise to
perform official acts “for the benefit of the payor.” In
20

As in McDonnell, there is no allegation that Silver accepted
payments knowing they were given with the expectation of
influencing a “cause, suit, proceeding or controversy.” We
therefore focus only on whether Silver knew the payments were
given with the expectation of influencing a “question or matter.”

56a
light of our analysis of McDonnell and Ganim, we
cannot conclude, beyond a reasonable doubt, that a
rational jury would have found Silver guilty of counts
related to the Mesothelioma Scheme had it been
properly instructed on the requirements of a quid pro
quo under an “as the opportunities arise” theory of
bribery.
Because, as we discuss in more detail below, the
statute of limitations precludes consideration of the
HCRA grants and the procurement of funding for
Taub’s wife’s charity, we limit our review to the other
evidence remaining in the record. This review reveals
that the Government presented no evidence that
Silver made any promises to Taub, after 2007,
regarding any action on any identified, or even
identifiable, question or matter—much less a focused
or concrete question or matter involving the exercise
of governmental power. While the Government argues
that the character of Silver and Taub’s quid pro quo
merely changed after 2007, we find no evidence in the
record from which a rational jury could conclude that
any quid pro quo between Silver and Taub related to
official acts existed after 2007. Instead, the only
promise that could be inferred from the evidence
presented at trial is that Silver promised to keep Taub
happy as the opportunities to do so arose. Such a
promise falls short of what Ganim required, even
before the Supreme Court narrowed the definition of
an official act in McDonnell. Keeping someone happy,
without more, is not a promise to exercise particular
kinds of influence, and it is especially not a promise to
perform official acts on an identified, focused, and
concrete matter or question that involves the exercise

57a
of governmental power. See McDonnell, 136 S. Ct. at
2370.
The last remaining argument that any error was
harmless, then, is that a rational jury would have
found that Silver promised to honor Taub through an
Assembly resolution in exchange for referrals. While
the Assembly resolution is indisputably an official act,
we find no evidence on the record from which a jury
could conclude Silver ever promised to pass the
resolution or understood Taub’s referrals were in
exchange for his doing so. Instead, the evidence
demonstrates that the assembly resolution was “last
minute,” and “rush[ed].” See Special App. 49. A
rational jury could only have found that Silver
engaged in a corrupt quid pro quo exchanging
referrals for the Assembly resolution by relying upon
the very instruction we find erroneous: that they need
only find Silver promised to perform official acts, for
the benefit of the payor, as the opportunities arose.
Consequently, with respect to the Mesothelioma
Scheme, the jury could have erroneously convicted
Silver based on a finding that he believed he was
expected to take official action to “benefit the payor,”
in any way, in the future.21

21

Compare, for example, Jennings, where the Fourth Circuit
found jury instructions plainly erroneous because they failed to
convey that “the jury [was required] to find a relatively specific
quid pro quo”—i.e., “that [the defendant] intended to trade
specific payments for specific favors.” 160 F.3d. at 1022
(emphases added). The jury instructions were erroneous because
“the court repeatedly charged that it was sufficient if [the
defendant] paid [the public official] to influence [the official] ‘in
connection with’ or ‘in reference to’ [the official’s agency’s]
business.” Id. These allusions to agency business “were too

58a
With respect to Counts 1s, 2s, and 5s, the error is
not harmless.
B. It Is Clear Beyond a Reasonable Doubt
that a Rational Jury Would Have Found
that the Real Estate Scheme Concerned
Sufficiently “Focused and Concrete”
“Questions or Matters” “Involving a
Formal Exercise of Governmental
Power.”
With respect to the Real Estate Scheme, the
question is whether it is clear beyond a reasonable
doubt that a rational jury would have found that Silver
accepted referral fees with the belief that he was
expected to influence a particular matter, namely the
relevant tax abatement and rent stabilization
programs, absent the error.22 Based on the evidence
general because they did not describe any official acts that [the
defendant] intended to induce with his payments to [the official].
These explanations could have described a situation in which [the
defendant] paid [the official] with a vague expectation of some
future benefit.” Id. (original alterations and internal quotation
marks omitted). Nevertheless, the Fourth Circuit found this
error was harmless because the “pattern of behavior confirmed
the existence of a quid pro quo.” Id. at 1023.
22

The Government suggests “shaping and supporting real
estate legislation” as a properly defined question or matter.
Appellee Br. at 56. We again disagree that this broad formulation
qualifies as “the kind of thing that can be put on an agenda,
tracked for progress, and then checked off as complete.” See
McDonnell, 136 S. Ct. at 2369. A narrower definition that focuses
on particular programs—e.g., tax abatement and rent
stabilization programs—is therefore required. However, the
question or matter need not specify how the public official would
support/oppose those programs—e.g., sponsoring a bill, lobbying
colleagues to gather votes for that bill, or funding a study on the
program’s efficacy. Despite the Government’s suggestion, we

59a
presented at trial, including circumstantial evidence
of the timing of PACB financing approvals and Silver’s
“side letter” retainer agreement, we conclude that it is
clear, beyond a reasonable doubt, that a properly
instructed, rational jury would have reached the same
conclusion.
Neither party argues, nor does the record reflect,
that Silver and the Developers themselves focused on
a particular question or matter forming the subject of
the quid pro quo in advance. However, the “side letter”
provides strong evidence of a quid pro quo between
Silver and the Developers on a focused and concrete
question or matter. Not only does it reasonably
constitute “behavior indicating consciousness of guilt,”
Bruno, 661 F.3d at 744 (quoting Friedman, 854 F.2d
at 554), it also supports a finding that Silver knew
Glenwood sought to exchange referrals for official
action. Indeed, Glenwood’s lobbyist testified that
Glenwood’s owner signed the agreement because
Silver was “extremely influential and powerful, not
somebody you would want to make not like you,” and
that not signing the letter could lead to “repercussions
legislatively.” J.A. 823, 825.
Based on the fact that the Developers knew
(i) Silver’s vote alone could prevent them from
obtaining PACB funding, and (ii) that Silver had an
extraordinary amount of power to influence the Rent
Act (which required regular renewal), it is clear
beyond a reasonable doubt that a rational, properly
instructed jury would conclude that the Developers
signed the “side letter” and thus provided business to
believe the facts as presented at trial suggest that such a
narrowly defined question was implicitly identified.

60a
G&I in exchange for official actions related to those
two questions or matters. This is especially true in
light of the circumstantial evidence presented by the
Government, which demonstrated a pattern between
Silver’s PACB approvals, actions with respect to the
Rent Act of 2011, and the Developers’ provision of
business to G&I. We believe it is clear beyond a
reasonable doubt that a rational jury would have
concluded, absent the error, that Silver understood he
was expected to support specific, identified provisions
of the Rent Act of 2011 in exchange for the Developers’
provision of business to G&I.
Furthermore, we find that the circumstantial
timing of Silver’s PACB funding approvals and
Glenwood’s signing of the “side letter” demonstrate
that one of the identified, focused, and concrete
matters at the heart of Silver’s quid pro quo with the
Developers was whether the State would finance the
Developers’ projects through PACB funding in
exchange for the Developers’ provision of business to
G&I.
On this evidence, we find that the district court’s
failure to instruct the jury that Silver must have
believed the Developers sought his influence on
“focused and concrete” matters was harmless. That is,
we are convinced, beyond a reasonable doubt, that a
rational, properly instructed jury would have found
Silver possessed the required mens rea at the time he
accepted the payment. This is especially true because
the district court instructed the jury that, should they
find “Mr. Silver understood that the benefits were
provided solely to cultivate goodwill or to nurture a
relationship with the person or entity who provided

61a
the benefit,” then no quid pro quo was proven. Special
App. 30.
We therefore affirm Silver’s convictions for the Real
Estate Scheme under Counts 3s, 4s, and 6s.
IV.Because There Is Insufficient Evidence to
Prove the Mesothelioma Scheme Beyond a
Reasonable Doubt, We Remand with
Instructions to Vacate Those Counts.
Having determined that the erroneous jury
instructions were not harmless with respect to the
Mesothelioma Scheme, we must assess whether those
counts should be remanded for a retrial or dismissed
outright. Ordinarily, “[a]n erroneous jury instruction
mandates a new trial unless the error is harmless.”
Cobb v. Pozzi, 363 F.3d 89, 112 (2d Cir. 2004).
However, on rare occasions, we have remanded with
instructions to dismiss charges without a trial where
it is undisputed that the evidence would be insufficient
to prove the elements of the charges beyond a
reasonable doubt to a properly instructed jury. See,
e.g., United States v. Newman, 773 F.3d 438, 451, 455
(2d Cir. 2014), abrogated on other grounds by Salman
v. United States, 137 S. Ct. 420 (2016).
Here, we must consider whether the jury could have
found the relevant elements of each of the
Mesothelioma Scheme counts beyond a reasonable
doubt. As noted earlier, for Hobbs Act extortion, the
Government
needed
to
prove
that
Silver
“obtain[ed] . . . property from another, with his
consent, induced . . . under color of official right.”
18 U.S.C. § 1951(b)(2); see also Silver I, 864 F.3d at
113–14. Additionally, and most relevant to the
resolution of this case, the Government must prove a

62a
quid pro quo, namely that the official “promise[d] . . .
to perform or not to perform an official act” in return
for payment, McCormick, 500 U.S. at 273, or accepted
a payment, “knowing that the payment was made in
return for official acts,” Evans, 504 U.S. at 268.
Similarly, with respect to honest services wire and
mail fraud, the Government needed to prove that
Silver used the mails and interstate wire
communications to participate in a “scheme or artifice”
to “deprive another of the intangible right of honest
services.” See 18 U.S.C. §§ 1341, 1343, 1346; Ganim,
510 F.3d at 147–48. As discussed above, section 1346
criminalizes only bribery and kickbacks, and the
parties agreed to define bribery by reference to
18 U.S.C. § 201, which criminalizes “corruptly”
demanding, seeking, receiving, accepting, or agreeing
to receive or accept “anything of value personally or for
any other person or entity, in return for . . . being
influenced in the performance of any official act.” See
18 U.S.C. § 201(b)(2)(A); McDonnell, 136 S. Ct. at
2365.
Here, Silver was not indicted until February 2015.
The five-year statute of limitations thus excludes
conduct that occurred before February 2010. See
18 U.S.C. § 3282(a). Because Silver refused to award
additional HCRA grants to Taub after 2007—prior to
the limitations period—the Government “need[ed] . . .
[to] prove that some aspect of the particular quid pro
quo scheme continued into the statute of limitations
period.” Silver I, 864 F.3d at 122. It did not.
Although Taub’s referrals continued into the
limitations period, until at least 2013, the Government
does not contend that those referrals constituted “back

63a
pay” for the 2005, 2006, or 2007 grants.23 Indeed, by
2007 Silver had told Taub that the HCRA grants
would cease, and Taub himself testified that the post2010 referrals were, instead, intended to curry
generalized goodwill.
See, e.g., J.A. 500 (Taub
testifying that he continued sending cases to Silver
because he “was a very powerful man and there were
other ways in which he could assist in helping
mesothelioma patients” (emphasis added)); id. at 1775
(2010 email from Taub stating that he would “keep
giving cases to [Silver] because [Taub] may need him
in the future—he is the most powerful man in New
York State” (emphasis added)); id. at 505 (Taub
testifying that he continued referring cases because he
hoped that “if cases were referred to [Silver], he would
continue to be incentivized to be an advocate for
mesothelioma research if the occasion arose”
(emphasis added)).
Moreover, the fact that W&L continued to pay Silver
after 2010 for legal fees generated on the pre-2007
referrals does not automatically extend the scheme for
statute of limitations purposes.
Rather, those
payments must be made “in furtherance of” an ongoing
scheme, not merely as “the result of a completed” one.

23

See, e.g., Jennings, 160 F.3d at 1014 (“Because the
distinguishing factor between a bribe and an illegal gratuity is
the intent behind the payment, the timing of the payment in
relation to the official act for which it is made is (in theory)
irrelevant. Bribes often are paid before the fact, but ‘it is only
logical that in certain situations the bribe will not actually be
conveyed until the act is done.’” (citation omitted) (quoting United
States v. Campbell, 684 F.2d 141, 148 (D.C. Cir. 1982))).

64a
See United States v. Grimm, 738 F.3d 498, 503 (2d Cir.
2013).24
The five-year statute of limitations under 18 U.S.C.
§ 3282(a) is not extended “where the payoff merely
consists of a lengthy, indefinite series of ordinary,
typically noncriminal, unilateral actions and there is
no evidence that any concerted activity posing the
special societal dangers of conspiracy is still taking
place.” Id. at 502 (alterations omitted) (quoting
United States v. Salmonese, 352 F.3d 608, 616 (2d Cir.
2003)); see also United States v. Rutigliano, 790 F.3d
389, 400–01 (2d Cir. 2015) (reviewing conspiracy to
commit mail and wire fraud under Grimm’s
standard).25 In Grimm, for example, we determined
that regular interest payments on a guaranteed
investment contract did not trigger a new limitations
period because they were “serial payments that . . .
[were] lengthy, indefinite, ordinary, typically
noncriminal and unilateral,” and made by wire over a
“prolonged time.” 738 F.3d at 503; cf. Rutigliano, 790
F.3d at 400–01 (finding limitations period extended
where coconspirators “engaged, within the limitations

24 See also Special App. 35 (district court instructing jury that,

“as to each count of wire or mail fraud you must find that a wire
communication or mailing respectively was made after February
19, 2010, in furtherance of that crime. As to each extortion count,
you must find that Mr. Silver or, at the direction of Mr. Silver, a
third party obtained property or money from the scheme after
February 19”).
25

Although Grimm and Rutigliano concerned conspiracy
prosecutions, their reasoning is grounded in conspiracy’s acts-infurtherance requirement and is therefore equally applicable to
the ongoing bribery scheme alleged here.

65a
period, in ‘measures of concealment’ and ‘other corrupt
intervention’” (quoting Grimm, 738 F.3d at 503)).
Based on this reasoning, we disagree with the
Government that the post-2010 payments provide
evidence of an ongoing scheme. There is no evidence
of any “corrupt intervention” here—and certainly
nothing like the conduct in Rutigliano, where the
defendants, within the limitations period, mailed false
disability recertification forms to secure continued
payments. See 790 F.3d at 400–01. Instead, the
compensation that Silver received after 2010 for
referrals Taub made before 2007—one third of any fee
ultimately earned by W&L—much more closely
resembles the indefinite and prolonged interest
payments in Grimm. See Appellee 28(j) Letter,
Mar. 14, 2019 (detailing 19 payments between August
2010 and September 2014, ranging from $0.86 to
$26,568.26, made to Silver over the course of four
years for the referral of one client in February 2004).
The thing of value (or the quid) that Silver received
from Taub in exchange for his promise to deliver the
HCRA grants was the referrals themselves—not the
subsequent payouts from W&L on the referrals that
generated fees for the firm. If Silver had been paid in
oil leases or diamonds or savings bonds, the result
would be the same, regardless of when those
properties were subsequently monetized. Here, Taub
paid his bribe in referrals made between 2005 and
2007—well before the February 2010 limitations cut
off. The fact that W&L later earned fees and cut
checks to Silver does not alter the fact that the HCRA
scheme was completed by 2007. Thus, because the
within-limitations payments to Silver from W&L were
“the result of a completed [scheme], and . . . not in

66a
furtherance of one that [was] ongoing,” the HCRA
scheme was not renewed with each payment. See
Grimm, 738 F.3d at 503 (second emphasis added).
Because the HCRA grants are time-barred, we turn
to the remaining three alleged official acts to
determine whether they provide evidence supporting
the Mesothelioma Scheme convictions.
To begin, Silver allocated state funding for Taub’s
wife’s charity in 2008, prior to the limitations period.
As with the HCRA grants, there is no evidence that
post-2010 referrals—i.e., referrals within the relevant
limitations period—were made in return for this prior
grant. The charity grant is likewise time-barred and
cannot sustain Silver’s conviction.
As to the charity race, McDonnell makes clear that
Silver’s offer to assist in securing permits for Taub’s
planned “Miles for Meso” event did not constitute an
official act. At trial, the Government showed that
Silver met with Taub in 2011 to discuss a charity run
in Lower Manhattan, which had a moratorium on such
events. Silver subsequently sent a letter to Taub, on
official letterhead, explaining the permit procedure
and promising to “help . . . navigate th[e] process if
needed.” J.A. 1774. Because “using government
letterhead is not, by itself, a formal exercise of
government power on a matter similar to a hearing or
lawsuit,” Silver I, 864 F.3d at 120, no reasonable jury
could find that Silver’s promise to “help . . . navigate
th[e] process,” J.A. 1774, constituted a promise to use
his office to Taub’s benefit.
The lone alleged official act remaining is the
Assembly resolution. Although Silver concedes that
the resolution constitutes an official act, the

67a
Government did not present any evidence to suggest
that Silver understood, at the time he accepted any
patient referrals, that Assembly recognition of Taub
was one of the “specific,” “focused, and concrete”
matters or questions that he was expected to
influence.26 Instead, during trial the Government
described the effort to secure the commendation as one
that proceeded “on a rush[ed] basis” and “at the last
minute.” Special App. 49.
Thus, Silver’s conviction on the Mesothelioma
Scheme turns on whether a rational jury could find
that Silver either promised or understood he was
expected to exchange the Assembly resolution for
referrals.
Without the HCRA grants, we are compelled to
conclude that “no rational trier of fact could have
found [Silver] guilty beyond a reasonable doubt” with
respect to Counts 1s, 2s, and 5s. See United States v.
Cassese, 428 F.3d 92, 98 (2d Cir. 2005) (quoting United
States v. Jackson, 335 F.3d 170, 180 (2d Cir. 2003));
see also Newman, 773 F.3d at 455 (identifying
instructional error and ordering dismissal of the
indictment under Rule 29 because even a properly
instructed jury would not have had sufficient evidence
to convict).27

26

The Government suggests “helping mesothelioma patients”
as a properly defined question or matter. Appellee Br. at 11. We
disagree that this broad formulation qualifies as “the kind of
thing that can be put on an agenda, tracked for progress, and then
checked off as complete.” See McDonnell, 136 S. Ct. at 2369.
27

Silver timely made a Rule 29 motion before the district
court. It was denied.

68a
For the same reasons that we found the erroneous
jury instructions were not harmless with respect to
Counts 1s, 2,s, and 5s, we find that there is no
evidence that Silver engaged in a quid pro quo within
the limitations period, much less understood he was
expected to influence a “focused and concrete” question
or matter in exchange for mesothelioma client
referrals.
At best, the Government’s evidence suggests Silver
understood he was expected to influence some or any
matter beneficial to Taub, should an opportunity to do
so arise. In essence, the Government argues that after
the HCRA scheme ended, without even a “wink[]” or a
“nod[]” from Taub indicating what he wanted in
exchange for future referrals, see Evans, 504 U.S. at
274 (Kennedy, J., concurring in part and concurring in
the judgment), Silver was found criminally liable for
engaging in outside work (an otherwise lawful
endeavor) and then helping a constituent (also an
otherwise lawful endeavor). For the reasons outlined
above, this falls short of the mens rea required for
bribery. And if there were any doubt, the Government
fails to argue in its brief that the exchange of referrals
for the Assembly resolution provides sufficient
evidence to support conviction on the counts in
question. See Appellee Br. at 55–56 (pointing to
“assistance in securing permits for a charity race” as
the only identified official act falling within the
limitations period).
Accordingly, we reverse the judgment of the district
court on Counts 1s, 2s and 5s and remand with
directions for the district court to enter a judgment of
acquittal on these counts.

69a
V. Money Laundering
Finally, the Government alleged that Silver
laundered the proceeds of the Mesothelioma and Real
Estate Schemes by investing them in high-yield,
private investment vehicles with the help of Jordan
Levy, a private investor.28 In May 2011, Silver
instructed Levy to transfer one half of an investment
to his wife to avoid publicly disclosing the full amount
of the investment. There is no dispute that the
underlying investment, an account at Counsel
Financial, was comprised in part of proceeds from the
2006–2007 HCRA scheme.
Silver argues that vacatur of his extortion and
honest services fraud counts compels vacatur of his
money laundering count as well. We disagree. Not
only are the remaining counts of conviction sufficient
to sustain his money laundering conviction, but
because Silver knowingly transferred proceeds of the
HCRA scheme within the limitations period, vacatur
of all of his counts of conviction would not compel a
different result.
The money laundering statute, 18 U.S.C. § 1957,
prohibits “knowingly engag[ing] . . . in a monetary
transaction in criminally derived property . . . .”29 Id.
§ 1957(a). “[M]onetary transaction” is defined as “the
deposit, withdrawal, transfer, or exchange . . . of funds
or a monetary instrument . . . by, through, or to a

28
29

Levy was unaware of the source of Silver’s funds.

The statute also requires that the property be derived from
“specified unlawful activity.” 18 U.S.C. § 1957(a). Mail fraud,
wire fraud, and Hobbs Act extortion categorically qualify as such.
See id. § 1956(c)(7)(A) (citing id. § 1961(1)).

70a
financial institution.” Id. § 1957(f)(1). “[C]riminally
derived property” is defined as “any property
constituting, or derived from, proceeds obtained from
a criminal offense.” Id. § 1957(f)(2).
Significantly, an individual need not have been
convicted of the underlying criminal offense in order to
be convicted of laundering the proceeds thereof. See
United States v. Pierce, 224 F.3d 158, 162–63, 165–67
(2d Cir. 2000). Rather, the Government need only
prove, beyond a reasonable doubt, that an individual
committed all elements of the underlying offense and
that the defendant knew that the proceeds were
derived from such unlawful activity. See id. Nor must
the underlying offense take place within the
limitations period. For example, in United States v.
Monaco, we rejected the defendant’s argument that
her prosecution for money laundering violated the Ex
Post Facto Clause. 194 F.3d 381, 385, 387 (2d Cir.
1999). Although the illegal proceeds were generated
prior to enactment of the money laundering statute,
the laundering activity continued post-enactment.
Only the latter fact was material because “[t]he
statute . . . makes no distinction based on when the
illegal activity took place or when the proceeds were
received.” Id. at 385; see also United States v. Gabel,
85 F.3d 1217, 1224 (7th Cir. 1996) (“[Money
laundering] focuses on the conversion of the fruits of
the earlier crimes into other, presumably less
detectable, forms. . . . Only when the effort to conduct
the financial transaction described by the statute
begins does the relevant conduct commence for money

71a
laundering itself.”).30 The relevant act for purposes of
the statute of limitations, in other words, is the
knowing “deposit, withdrawal, transfer, or exchange”
of “proceeds obtained from a criminal offense.”
18 U.S.C. § 1957(f)(1)–(2).
We are convinced, beyond a reasonable doubt, that
a rational jury would have found that Silver laundered
the proceeds of a criminal offense within the
limitations period. See Bah, 574 F.3d at 114. As to the
underlying criminal offense, it is clear that, but for the
statute of limitations, even a properly charged jury
would have convicted Silver of extortion and honest
services fraud in relation to the HCRA scheme. Put
differently, it is clear that Silver committed all
elements of the criminal offense underlying his money
laundering conviction, albeit outside the five-year
statute of limitations.31 As to the limitations period,

30

Indeed, it is often the case that the proceeds of the criminal
offense were derived long before the money laundering
transaction. Imagine a scenario where an individual sold drugs
in 2005 and hid the cash proceeds in her basement for ten years.
Imagine further that she then decided to sell the house in 2015
and deposited the cash from the basement into a bank account
disguised as proceeds from the sale of the house. Although she
could not be prosecuted for the narcotics trafficking, as the
statute of limitations would have run, the government could still
prosecute her for the money laundering. See generally United
States v. Szur, 289 F.3d 200, 214 (2d Cir. 2002) (“[M]oney
laundering does not focus on the specifics of the predicate offense,
[and] it does not matter when all the acts constituting the
predicate offense take place.”
(quoting United States v.
Mankarious, 151 F.3d 694, 706 (7th Cir. 1998))).
31

Cf. Silver I, 864 F.3d at 124 (vacating money laundering
conviction following vacatur of the underlying extortion and
honest services fraud convictions because a properly instructed

72a
the relevant unlawful act for the money laundering
count is not the HCRA scheme itself, but instead the
knowing transfer of the proceeds thereof. That act
occurred in 2011 and was, therefore, well within the
limitations period.
Thus, we affirm Silver’s conviction under Count 7s
for money laundering.
***
So long as “curry[ing] favor” and “build[ing] a
reservoir of goodwill” with politicians is legal, see
Ganim, 510 F.3d at 146; Sun-Diamond, 526 U.S. at
405, the Government’s burden in bribery prosecutions
remains high. This case provides a useful illustration
of that which is bribery and that which is not. With
respect to the HCRA grants, Silver received a thing of
value in return for exerting official influence on a
particular matter. This is a classic example of bribery,
and, but for the statute of limitations, Silver’s
conviction for the Mesothelioma Scheme would stand,
regardless of the jury instructions.
On the other end of the spectrum sit the Assembly
commendation and charity race permits. An official
who merely accepts a thing of value in an otherwiselegal manner (e.g., client referrals, as permitted under
New York law) has not committed a crime. If that
official later acts to the benefit of the payor, she still
has not committed a crime. It is only upon a showing
that, at the time the official accepted the payment, she
understood it to be a payment in exchange for official
influence on some specific, focused, and concrete
jury may not have found all elements of the predicate offenses
satisfied).

73a
matter involving the formal exercise of governmental
power that the Government has met its burden.
CONCLUSION
For the foregoing reasons, we REVERSE the
judgment and VACATE the conviction on Counts 1s,
2s, and 5s, and AFFIRM the conviction on Counts 3s,
4s, 6s, and 7s. We REMAND to the district court to
dismiss the indictment with prejudice as it pertains to
the reversed counts, for resentencing, and for such
further proceedings as may be appropriate and
consistent with this opinion with respect to the
remaining counts.

74a

APPENDIX B

UNITED STATES COURT OF APPEALS
FOR THE

SECOND CIRCUIT
At a stated term of the United States Court of
Appeals for the Second Circuit, held at the Thurgood
Marshall United States Courthouse, 40 Foley Square,
in the City of New York, on the 21st day of February,
two thousand twenty.
United States of America,
Appellee,
The New York Times Company,
NBCUniversal Media, LLC,
Intervenors,

ORDER
Docket No:
18-2380

v.
Sheldon Silver,
Defendant-Appellant.
Appellant, Sheldon Silver, filed a petition for panel
rehearing, or, in the alternative, for rehearing en banc.
The panel that determined the appeal has considered

75a
the request for panel rehearing, and the active
members of the Court have considered the request for
rehearing en banc.
IT IS HEREBY ORDERED that the petition is
denied.
FOR THE COURT:
Catherine O’Hagan Wolfe, Clerk

76a

APPENDIX C

UNITED STATES DISTRICT COURT
Southern District of New York
UNITED STATES
OF AMERICA
v.
Sheldon Silver

)
)
)
)
)
)
)
)
)
)
)
)

JUDGMENT IN A
CRIMINAL CASE
Case Number: 1:S1 15CR-00093-(01)(VEC)
USM Number: 71915054
Michael Feldberg,
Rebecca Naeder &
Michael Westfal
Defendant’s Attorney

THE DEFENDANT:
 pleaded guilty to count(s)
 pleaded nolo contendere to count(s)
which was accepted by the court.
 was found guilty on count(s) 1s, 2s, 3s, 4s, 5s, 6s,
and 7s. after a plea of not guilty.
The defendant is adjudicated guilty of these offenses:

77a
Title &
Section
18 U.S.C.
1341, 1346,

Nature of
Offense

Offense
Count
Ended

Honest Services
Mail Fraud:
Asbestos
Payments

1/31/2015

1s

18 U.S.C. 1343,
1346,

1/31/2015

2s

and 2.
18 U.S.C.
1343, 1346,

The defendant is sentenced as provided in pages 2
through 8 of this judgment. The sentence is
imposed pursuant to the Sentencing Reform Act of
1984.
 The defendant has been found not guilty on count(s)
 Count(s) in the underlying indictment  is  are
dismissed on the motion of the United States.
It is ordered that the defendant must notify the
United States attorney for this district within 30 days
of any change of name, residence, or mailing address
until all fines, restitution, costs, and special
assessments imposed by this judgment are fully paid.
If ordered to pay restitution, the defendant must notify
the court and United States attorney of material
changes in economic circumstances.

78a
7/27/2018
Date of Imposition of
Judgment
USDC SDNY
DOCUMENT
ELECTRONICALLY
FILED

/s/ Valerie Caproni
Signature of Judge

DOC #:
DATE FILED: 7/30/18

Valerie Caproni, U.S.D.J.
Name and Title of Judge

7/30/2018
Date

79a
ADDITIONAL COUNTS OF CONVICTION
Title &
Section

Nature of
Offense

Offense
Ended

Count

and 2.
18 U.S.C.
1341, 1346

Honest Services
1/31/2015
Mail Fraud: Real
Estate Payments

3s

Honest Services
1/31/2015
Wire Fraud: Real
Estate Payments

4s

18 U.S.C.
1951 and 2.

Extortion Under
Color of Official
Right: Asbestos
Payments

1/31/2015

5s

18 U.S.C.
1951 and 2.

Extortion Under
Color of Official
Right: Real
Estate Payments

1/31/2015

6s

18 U.S.C.
1957 and 2.

Monetary
Transactions
Involving Crime
Proceeds

1/31/2015

7s

and 2.
18 U.S.C.
1343, 1346
and 2.

80a
IMPRISONMENT
The defendant is hereby committed to the custody of
the Federal Bureau of Prisons to be imprisoned for a
total term of:
7 years on counts 1–7, to run
concurrently to each other.
 The court makes the following recommendations to
the Bureau of Prisons:
Designate the defendant to FCI Otisville Camp.
 The defendant is remanded to the custody of the
United States Marshal.
 The defendant shall surrender to the United States
Marshall for this district:
 at __________  a.m.  p.m. on ____________.
 as notified by the United States Marshal
 The defendant shall surrender for service of
sentence at the institution designated by the
Bureau of Prisons:
 before 2 p.m. on 10/5/2018

.

 as notified by the United States Marshal.
 as notified by the Probation or Pretrial Services
Office.
If no facility is designated by then, defendant
must surrender to the U.S. Marshal, Southern
District of New York.
RETURN
I have executed this judgment as follows:

81a
Defendant was delivered on _________ to _________
at _________, with a certified copy of this judgment.
UNITED STATES
MARSHAL
BY
DEPUTY UNITED
STATES MARSHAL
SUPERVISED RELEASE
Upon release from imprisonment, you will be on
supervised release for a term of:
Three (3) years on counts 1–7, to run concurrently
to each other.
MANDATORY CONDITIONS
1.

You must not commit another federal, state or
local crime.

2.

You must not unlawfully possess a controlled
substance.

3.

You must refrain from any unlawful use of a
controlled substance. You must submit to one
drug test within 15 days of release from
imprisonment and at least two periodic drug tests
thereafter, as determined by the court.
 The above drug testing condition is
suspended,
based
on
the
court’s
determination that you pose a low risk of
future substance abuse. (check if applicable)

4.

 You must make restitution in accordance with
18 U.S.C. §§ 3663 and 3663A or any other

82a
statute authorizing a sentence of restitution.
(check if applicable)
5.

 You must cooperate in the collection of DNA as
directed by the probation officer. (check if
applicable)

6.

 You must comply with the requirements of the
Sex Offender Registration and Notification Act
(34 U.S.C. § 20901, et seq.) as directed by the
probation officer, the Bureau of Prisons, or any
state sex offender registration agency in the
location where you reside, work, are a student,
or were convicted of a qualifying offense. (check
if applicable)

7.

 You must participate in an approved program
for domestic violence. (check if applicable)

You must comply with the standard conditions that
have been adopted by this court as well as with any
other conditions on the attached page.
STANDARD CONDITIONS OF SUPERVISION
As part of your supervised release, you must comply
with the following standard conditions of supervision.
These conditions are imposed because they establish
the basic expectations for your behavior while on
supervision and identify the minimum tools needed by
probation officers to keep informed, report to the court
about, and bring about improvements in your conduct
and condition.
1.

You must report to the probation office in the
federal judicial district where you are authorized
to reside within 72 hours of your release from

83a
imprisonment, unless the probation officer
instructs you to report to a different probation
office or within a different time frame.
2.

After initially reporting to the probation office,
you will receive instructions from the court or the
probation officer about how and when you must
report to the probation officer, and you must
report to the probation officer as instructed.

3.

You must not knowingly leave the federal judicial
district where you are authorized to reside
without first getting permission from the court or
the probation officer.

4.

You must answer truthfully the questions asked
by your probation officer.

5.

You must live at a place approved by the
probation officer. If you plan to change where you
live or anything about your living arrangements
(such as the people you live with), you must notify
the probation officer at least 10 days before the
change. If notifying the probation officer in
advance is not possible due to unanticipated
circumstances, you must notify the probation
officer within 72 hours of becoming aware of a
change or expected change.

6.

You must allow the probation officer to visit you
at any time at your home or elsewhere, and you
must permit the probation officer to take any
items prohibited by the conditions of your
supervision that he or she observes in plain view.

7.

You must work full time (at least 30 hours per
week) at a lawful type of employment, unless the
probation officer excuses you from doing so. If you
do not have full-time employment you must try to

84a
find full-time employment, unless the probation
officer excuses you from doing so. If you plan to
change where you work or anything about your
work (such as your position or your job
responsibilities), you must notify the probation
officer at least 10 days before the change. If
notifying the probation officer at least 10 days in
advance is not possible due to unanticipated
circumstances, you must notify the probation
officer within 72 hours of becoming aware of a
change or expected change.
8.

You must not communicate or interact with
someone you know is engaged in criminal activity.
If you know someone has been convicted of a
felony, you must not knowingly communicate or
interact with that person without first getting the
permission of the probation officer.

9.

If you are arrested or questioned by a law
enforcement officer, you must notify the
probation officer within 72 hours.

10. You must not own, possess, or have access to a
firearm, ammunition, destructive device, or
dangerous weapon (i.e., anything that was
designed, or was modified for, the specific purpose
of causing bodily injury or death to another
person such as nunchakus or tasers).
11. You must not act or make any agreement with a
law enforcement agency to act as a confidential
human source or informant without first getting
the permission of the court.
12. If the probation officer determines that you pose
a risk to another person (including an
organization), the probation officer may require

85a
you to notify the person about the risk and you
must comply with that instruction. The probation
officer may contact the person and confirm that
you have notified the person about the risk.
13. You must follow the instructions of the probation
officer related to the conditions of supervision.
U.S. Probation Office Use Only
A U.S. probation officer has instructed me on the
conditions specified by the court and has provided me
with a written copy of this judgment containing these
conditions. For further information regarding these
conditions, see Overview of Probation and Supervised
Release Conditions, available at: www.uscourts.gov.
Defendant’s
Signature

Date

SPECIAL CONDITIONS OF SUPERVISION
The defendant shall provide the probation officer with
access to any requested financial information.
The defendant shall not incur new credit charges or
open additional lines of credit without approval of the
probation officer unless defendant is in compliance
with the installment payment schedule.
The defendant must report to the nearest Probation
Office within 72 hours of his release from custody.
The defendant will be supervised in the district of his
residence.

86a
CRIMINAL MONETARY PENALTIES
The defendant must pay the total criminal
monetary penalties under the schedule of payments on
Sheet 6.
JVTA
AssessAssessment
ment*
TOTALS $700.00

$

Fine

Restitution

$1,750,000.00

$

 The determination of restitution is deferred until
________. An Amended Judgment in a Criminal
Case (AO 245C) will be entered after such
determination.
 The defendant must make restitution (including
community restitution) to the following payees in
the amount listed below,
If the defendant makes a partial payment, each
payee shall receive an approximately proportioned
payment, unless specified otherwise in the priority
order or percentage payment column below.
However, pursuant to 18 U.S.C. § 3664(i), all
nonfederal victims must be paid before the United
States is paid.
Name of
Payee

TOTALS

Total
Loss**

$

0.00

Restitution Priority or
Ordered Percentage

$

0.00

87a
 Restitution amount ordered pursuant to plea
agreement $________
 The defendant must pay interest on restitution and
a fine of more than $2,500, unless the restitution or
fine is paid in full before the fifteenth day after the
date of the judgment, pursuant to 18 U.S.C.
§ 3612(f). All of the payment options on Sheet 6 may
be subject to penalties for delinquency and default,
pursuant to 18 U.S.C. § 3612(g).
 The court determined that the defendant does not
have the ability to pay interest and it is ordered
that:
 the interest requirement is waived for the
 fine  restitution.
 the interest requirement for the
 restitution is modified as follows:

 fine

* Justice for Victims of Trafficking Act of 2015, Pub. L.
No. 114-22.
** Findings for the total amount of losses .are required
under Chapters 109A, 110, 110A, and 113A of Title 18
for offenses committed on or after September 13, 1994,
but before April 23, 1996.
SCHEDULE OF PAYMENTS
Having assessed the defendant’s ability to pay,
payment of the total criminal monetary penalties is
due as follows:
A  Lump sum payment of $700.00 due immediately,
balance due
 not later than ________, or

88a
 in accordance with  C,  D,  E, or  F
below; or
B  Payment to begin immediately (may be combined
with  C,  D, or  F below); or
C  Payment in equal ________ (e.g., weekly, monthly,
quarterly) installments of $________ over a period
of ________ (e.g., months or years), to commence
________ (e.g., 30 or 60 days) after the date of this
judgment; or
D  Payment in equal ________ (e.g., weekly, monthly,
quarterly) installments of $________ over a period
of ________ (e.g., months or years), to commence
________ (e.g., 30 or 60 days) after release from
imprisonment to a term of supervision; or
E  Payment during the term of supervised release
will commence within ________ (e.g., 30 or 60
days) after release from imprisonment. The court
will set the payment plan based on an assessment
of the defendant’s ability to pay at that time; or
F  Special instructions regarding the payment of
criminal monetary penalties:
Not later than 9/21/18, defendant must pay
$1,200,000. The balance of the fine ($55,000)
shall be paid in monthly installments, beginning
on 8/15/2018, of not less than $5,846. While
incarcerated, if the defendant is engaged in BOP’s
Unicor program as a grade 1 through 4, the
defendant shall pay an additional 50% of his
monthly Unicor earnings towards financial
penalties. If defendant is engaged in a nonUnicor program, the defendant shall pay an
additional $25 per quarter towards his financial
penalties.

89a
Unless the court has expressly ordered otherwise, if
this judgment imposes imprisonment, payment of
criminal monetary penalties is due during the period
of imprisonment. All criminal monetary penalties,
except those payments made through the Federal
Bureau of Prisons’ Inmate Financial Responsibility
Program, are made to the clerk of the court.
The defendant shall receive credit for all payments
previously made toward any criminal monetary
penalties imposed.
 Joint and Several
Defendant and Co-Defendant Names and Case
Numbers (including defendant number), Total
Amount, Joint and Several Amount, and
corresponding payee, if appropriate.
 The defendant shall pay the cost of prosecution.
 The defendant shall pay the following court cost(s):
 The defendant shall forfeit the defendant’s interest
in the following property to the United States:
$3,739,808.53 plus the earnings in that amount to
be determined subsequently.
Payments shall be applied in the following order:
(1) assessment, (2) restitution principal, (3) restitution
interest, (4) fine principal, (5) fine interest,
(6) community restitution, (7) JVTA assessment,
(8) penalties, and (9) costs, including cost of
prosecution and court costs.

90a

APPENDIX D

18 U.S.C. § 1341. Frauds and swindles
Whoever, having devised or intending to devise any
scheme or artifice to defraud, or for obtaining money
or property by means of false or fraudulent pretenses,
representations, or promises, or to sell, dispose of,
loan, exchange, alter, give away, distribute, supply, or
furnish or procure for unlawful use any counterfeit or
spurious coin, obligation, security, or other article, or
anything represented to be or intimated or held out to
be such counterfeit or spurious article, for the purpose
of executing such scheme or artifice or attempting so
to do, places in any post office or authorized depository
for mail matter, any matter or thing whatever to be
sent or delivered by the Postal Service, or deposits or
causes to be deposited any matter or thing whatever
to be sent or delivered by any private or commercial
interstate carrier, or takes or receives therefrom, any
such matter or thing, or knowingly causes to be
delivered by mail or such carrier according to the
direction thereon, or at the place at which it is directed
to be delivered by the person to whom it is addressed,
any such matter or thing, shall be fined under this title
or imprisoned not more than 20 years, or both. If the
violation occurs in relation to, or involving any benefit
authorized, transported, transmitted, transferred,
disbursed, or paid in connection with, a presidentially
declared major disaster or emergency (as those terms
are defined in section 102 of the Robert T. Stafford
Disaster Relief and Emergency Assistance Act (42

91a
U.S.C. 5122)), or affects a financial institution, such
person shall be fined not more than $1,000,000 or
imprisoned not more than 30 years, or both.
2557.)
18 U.S.C.A. § 1343. Fraud by
wire, radio, or television
Whoever, having devised or intending to devise any
scheme or artifice to defraud, or for obtaining money
or property by means of false or fraudulent pretenses,
representations, or promises, transmits or causes to be
transmitted by means of wire, radio, or television
communication in interstate or foreign commerce, any
writings, signs, signals, pictures, or sounds for the
purpose of executing such scheme or artifice, shall be
fined under this title or imprisoned not more than 20
years, or both. If the violation occurs in relation to, or
involving any benefit authorized, transported,
transmitted, transferred, disbursed, or paid in
connection with, a presidentially declared major
disaster or emergency (as those terms are defined in
section 102 of the Robert T. Stafford Disaster Relief
and Emergency Assistance Act (42 U.S.C. 5122)), or
affects a financial institution, such person shall be
fined not more than $1,000,000 or imprisoned not
more than 30 years, or both.

92a
18 U.S.C.A. § 1346. Definition of
“scheme or artifice to defraud”
For the purposes of this chapter, the term “scheme or
artifice to defraud” includes a scheme or artifice to
deprive another of the intangible right of honest
services.
18 U.S.C.A. § 1951. Interference with
commerce by threats or violence
(a) Whoever in any way or degree obstructs, delays, or
affects commerce or the movement of any article or
commodity in commerce, by robbery or extortion or
attempts or conspires so to do, or commits or threatens
physical violence to any person or property in
furtherance of a plan or purpose to do anything in
violation of this section shall be fined under this title
or imprisoned not more than twenty years, or both.
(b) As used in this section—
(1) The term “robbery” means the unlawful taking
or obtaining of personal property from the person or
in the presence of another, against his will, by
means of actual or threatened force, or violence, or
fear of injury, immediate or future, to his person or
property, or property in his custody or possession, or
the person or property of a relative or member of his
family or of anyone in his company at the time of the
taking or obtaining.
(2) The term “extortion” means the obtaining of
property from another, with his consent, induced by
wrongful use of actual or threatened force, violence,
or fear, or under color of official right.

93a
(3) The term “commerce” means commerce within
the District of Columbia, or any Territory or
Possession of the United States; all commerce
between any point in a State, Territory, Possession,
or the District of Columbia and any point outside
thereof; all commerce between points within the
same State through any place outside such State;
and all other commerce over which the United
States has jurisdiction.
(c) This section shall not be construed to repeal,
modify or affect section 17 of Title 15, sections 52, 101115, 151-166 of Title 29 or sections 151-188 of Title 45.
18 U.S.C.A. § 1957. Engaging in monetary
transactions in property derived from
specified unlawful activity
(a) Whoever, in any of the circumstances set forth in
subsection (d), knowingly engages or attempts to
engage in a monetary transaction in criminally
derived property of a value greater than $10,000 and
is derived from specified unlawful activity, shall be
punished as provided in subsection (b).
(b)(1) Except as provided in paragraph (2), the
punishment for an offense under this section is a
fine under title 18, United States Code, or
imprisonment for not more than ten years or both.
If the offense involves a pre-retail medical product
(as defined in section 670) the punishment for the
offense shall be the same as the punishment for an
offense under section 670 unless the punishment
under this subsection is greater.
(2) The court may impose an alternate fine to that
imposable under paragraph (1) of not more than

94a
twice the amount of the criminally derived property
involved in the transaction.
(c) In a prosecution for an offense under this section,
the Government is not required to prove the defendant
knew that the offense from which the criminally
derived property was derived was specified unlawful
activity.
(d) The circumstances referred to in subsection (a)
are—
(1) that the offense under this section takes place in
the United States or in the special maritime and
territorial jurisdiction of the United States; or
(2) that the offense under this section takes place
outside the United States and such special
jurisdiction, but the defendant is a United States
person (as defined in section 3077 of this title, but
excluding the class described in paragraph (2)(D) of
such section).
(e) Violations of this section may be investigated by
such components of the Department of Justice as the
Attorney General may direct, and by such components
of the Department of the Treasury as the Secretary of
the Treasury may direct, as appropriate, and, with
respect to offenses over which the Department of
Homeland Security has jurisdiction, by such
components of the Department of Homeland Security
as the Secretary of Homeland Security may direct,
and, with respect to offenses over which the United
States Postal Service has jurisdiction, by the Postal
Service. Such authority of the Secretary of the
Treasury, the Secretary of Homeland Security, and
the Postal Service shall be exercised in accordance
with an agreement which shall be entered into by the

95a
Secretary of the Treasury, the Secretary of Homeland
Security, the Postal Service, and the Attorney
General.
(f) As used in this section—
(1) the term “monetary transaction” means the
deposit, withdrawal, transfer, or exchange, in or
affecting interstate or foreign commerce, of funds or
a monetary instrument (as defined in section
1956(c)(5) of this title) by, through, or to a financial
institution (as defined in section 1956 of this title),
including any transaction that would be a financial
transaction under section 1956(c)(4)(B) of this title,
but such term does not include any transaction
necessary to preserve a person’s right to
representation as guaranteed by the sixth
amendment to the Constitution;
(2) the term “criminally derived property” means
any property constituting, or derived from, proceeds
obtained from a criminal offense; and
(3) the terms “specified unlawful activity” and
“proceeds” shall have the meaning given those
terms in section 1956 of this title.

